   THE FEDERAL BUREAU OF INVESTIGATION’S
PRE-ACQUISITION PLANNING FOR AND CONTROLS
 OVER THE SENTINEL CASE MANAGEMENT SYSTEM



         U.S. Department of Justice
       Office of the Inspector General
                Audit Division
            Audit Report 06-14
               March 2006
              THE FEDERAL BUREAU OF INVESTIGATION’S
           PRE-ACQUISITION PLANNING FOR AND CONTROLS
            OVER THE SENTINEL CASE MANAGEMENT SYSTEM


                        EXECUTIVE SUMMARY

       In March 2005, the Federal Bureau of Investigation (FBI)
terminated a 3-year, $170 million effort to develop a modern case
management system called the Virtual Case File (VCF) and announced
a new project called Sentinel. As detailed in the Office of the Inspector
General’s (OIG) February 2005 audit report on the FBI’s larger Trilogy
Information Technology Modernization Project, the VCF project failed
for a variety of reasons, including poorly defined design requirements,
lack of mature Information Technology Investment Management
(ITIM) processes, and poor management continuity and oversight. 1

       With Sentinel, the FBI is relying on improved management
processes, use of commercially available components, and a four-
phase approach over 39 to 48 months to develop a replacement for its
obsolete Automated Case Support (ACS) system. As of February
2006, the FBI had not disclosed its specific cost estimates for Sentinel
because the contract to a private information technology (IT) systems
developer had not yet been awarded. However, in response to
congressional inquiries, the FBI has cited a cost between $400-$500
million to develop the system. According to the FBI, a more precise
cost estimate will be available once the FBI awards the Sentinel
contract in calendar year 2006.

      The OIG performed this audit of the Sentinel project at the
request of the FBI Director and congressional appropriations
committees. This audit is the first in a series of audits that the OIG
intends to conduct on an ongoing basis to evaluate the development
and implementation of Sentinel. The objective of this first audit was to
evaluate the FBI’s pre-acquisition planning for Sentinel, including the
approach, design, cost, funding sources, timeframe, contracting
vehicle, and oversight structure. Our future audits will examine the
development of the system over its four phases and assess whether
cost, schedule, performance, and technical benchmarks are being met.



       1
         The Department of Justice, Office of the Inspector General, The Federal
Bureau of Investigation’s Management of the Trilogy Information Technology
Modernization Project, Audit Report Number 05-7, February 2005.


                                          i
Background to Sentinel

      A major objective of the FBI’s IT modernization project is to
replace the FBI’s antiquated ACS. During a variety of OIG reviews
over the past several years, we reported that ACS uses outmoded
technology, is cumbersome to operate, and does not provide
necessary workflow and information-sharing functions.

      The FBI expects that Sentinel will provide it with a web-enabled
case management system that includes records management,
workflow management, collected item and evidence management, and
records search and reporting capabilities, all of which will replace its
current paper-based case management system. The FBI intends to
implement Sentinel in four phases, with each phase providing distinct
capabilities until the overall project is completed in 2009. The FBI
expects to complete each of the phases in 12 to 18 months, with the
phases overlapping. For example, Phase II will begin about 3 months
into Phase I. According to the FBI, the four phases will provide the
following capabilities.

      •   Phase I will provide the web-based Sentinel portal. Initially,
          the portal will allow access to ACS data and eventually to data
          in the new case management system. It will also include a
          case management “workbox” that will summarize a user’s
          workload (the case files an agent or analyst is working on),
          and provide automatic indexing in case files according to
          person, place, or thing.

      •   Phase II will begin the transition to a paperless case records
          system by providing electronic case document management
          and a records repository. A workflow tool will support the
          movement of electronic case files through the review and
          approval process, while a security framework will provide
          access controls and electronic signatures.

      •   Phase III will provide a new Universal Index (UNI), which is a
          database of people, places, or things that relate to a case.
          Expanding the number of attributes in the system will enable
          more precise searching and will enhance agents’ ability to
          “connect the dots” among cases.

      •   Phase IV will implement Sentinel’s new case management and
          reporting capabilities, including the management of tasks and
          evidence. During this phase, Sentinel will be connected to


                                    ii
         ACS, data on closed cases will be migrated from ACS to
         Sentinel, and the process to retire ACS will begin.

       In reviewing the management processes and controls the FBI
has applied to the pre-acquisition phase of Sentinel, we believe that
the FBI has adequately planned for the project and this planning
provides reasonable assurance that the FBI can successfully complete
Sentinel if the processes and controls are implemented as intended.
However, we have several concerns about the project that require
action and continued monitoring: (1) the incomplete staffing of the
PMO, (2) the FBI’s ability to reprogram funds to complete the second
phase of the project without jeopardizing its mission-critical
operations, (3) Sentinel’s ability to share information with external
intelligence and law enforcement agencies and provide a common
framework for other agencies’ case management systems, (4) the lack
of an established Earned Value Management (EVM) process, (5) the
FBI’s ability to track and control Sentinel’s costs, and (6) the lack of
complete documentation required by the FBI’s ITIM processes.

New IT Management Processes

       In previous reports, we were critical of the FBI’s lack of ITIM
processes and Enterprise Architecture (the blueprint for its current and
future IT environment) in the implementation of Trilogy. We believe
that these weaknesses contributed, in large part, to the FBI’s past
failures in developing IT systems.

       In this audit, we found that since the troubled Trilogy project
and VCF failure, the FBI has established ITIM processes through its
Life Cycle Management Directive (LCMD) and through continued work
on fully defining its Enterprise Architecture. The FBI’s newly created
IT management processes, reviews, and controls, coupled with
external oversight by the OIG, contractors, congressional committees,
and others, should help the FBI identify and minimize failures to
achieve cost, schedule, performance, and technical benchmarks for the
Sentinel project.

Life Cycle Management Directive

      In November 2004, the FBI established an initial Life Cycle
Management Directive, which it has since refined and is applying to
the Sentinel project. The LCMD governs all aspects of an IT project,
including planning, acquisition, development, testing, and operations
and maintenance. The FBI’s LCMD contains four overlapping


                                   iii
components: life cycle phases, control gates, project level reviews,
and key support processes.

      Nine life cycle phases require FBI management approvals during
the development, implementation, and retirement of IT projects. The
approvals occur through seven control gates in which an FBI
executive-level review board discusses and approves the project
before it proceeds to the next control gate. The control reviews, in
turn, are based on the results of project-level reviews described below.

      As of December 2005, the FBI’s Investment Management Project
Review Board (IMPRB) had approved the Sentinel project through two
control gates covering three of the nine life cycle phases: concept
exploration, requirements development, and acquisition planning.
These three phases covered the following planning aspects of Sentinel.

      •   Concept exploration identified the mission need, evaluated
          solutions, and developed a business plan.

      •   Requirements development defined the operational, technical,
          and testing needs.

      •   Acquisition planning allocated the requirements among the
          various development stages, researched and applied lessons
          learned from previous projects, identified potential product
          and service providers, and determined funding sources.

      The remaining life cycle phases will cover source selection where
proposals are solicited and evaluated and the vendor is selected;
design of the system’s components and connectivity; testing of system
components and the overall product; implementation and integration
of the operational system, including training; operations and
maintenance to support the system; and disposal of Sentinel when it
reaches the end of its life cycle.

      The FBI completed two Sentinel control gates by the conclusion
of our field work for this audit report in December 2005. The review
board approved the system concept in mid-July 2005 and the
acquisition plan in late-July 2005. The latter review approved
documentation of the system specifications and interface controls, as
well as the project approach and resource estimates. Sentinel will be
required to pass through four more control gates — final design
review, deployment readiness, system test readiness, and operational
acceptance review — and will be reviewed by four other executive-


                                   iv
level review boards as the project proceeds. 2 The next control gate,
final design review, is led by the Technical Review Board and seeks to
ensure that the project design complies with technical requirements
and will meet the FBI’s needs.

       The various executive-level control gate reviews are based in
part on the results of more detailed project-level reviews. The LCMD
calls for the FBI’s Program Management Office to conduct these
project reviews. By December 2005, the FBI-wide Program
Management Office had conducted two project-level reviews that fed
into the two higher-level control gate reviews. The first was a
mission-needs review approving Sentinel’s mission requirements, and
the second was a system specification review approving documents for
the system specifications and the external interface controls. The
system specification review was the decision point that led to
development of Sentinel’s acquisition plan, the allocation of the
requirements to the four phases of the project, and the development
of project plans to carry out the acquisition.

      In addition to the project-level reviews, the LCMD contains 23
key support processes that provide additional support to the
development of IT projects within the FBI. Rather than being created
for specific projects, these processes cover organization-wide
management functions, such as strategic planning. As a result, the
key support processes affect how individual projects such as Sentinel
are managed within the FBI. Key support processes are also
performed independently from the life cycle phases, but the
deliverables associated with each key process area are integrated into
the project-level and control gate reviews where applicable.

      In examining the implementation of the LCMD for Sentinel thus
far — a vital element in providing internal management oversight and
control over the project — we concluded that the FBI’s ITIM processes
appear to be sound and were generally being followed. We also found
that the FBI successfully completed most of the documentation
required for the first three phases of the nine-phase life cycle.
However, as of December 2005, the FBI had not yet completed the
system security plan or the verification and validation plan as required
by the LCMD. Nevertheless, Sentinel was approved to proceed past
the second control gate without these two plans. The FBI explained
that: (1) the system security plan cannot be completed until

       2
         The LCMD has a seventh control gate at the end of a system’s life cycle to
authorize the termination of operations and maintenance and the disposal of system
assets.


                                         v
Sentinel’s vendor provides detailed information on the project’s design,
and (2) a separate contract will be awarded to develop an Independent
Verification and Validation (IV&V) plan.

      The FBI further explained that the system security plan will
provide detail necessary for the completion of certification and
accreditation of the applications being created for Sentinel, while the
IV&V plan will provide for an independent control to assess the
implementation of the system according to technical and performance
baselines. We believe the FBI’s explanation for deferring these two
plans are reasonable, given the timing of the contract for Sentinel.
However, in our next audit, we will monitor whether the FBI completes
the system security plan and the IV&V plan during the early stages of
Sentinel’s development.

Risk Management

      The purpose of risk management is to assist the program
management team in identifying, assessing, categorizing, monitoring,
controlling, and mitigating risks before they negatively affect a
program. A risk management plan identifies procedures used to
manage risk throughout the life of the program.

      We found that the FBI has instituted a risk management process
for Sentinel. Although Risk Review Board meetings have been held
biweekly since the project began, the FBI stated that it plans to hold
weekly meetings once the Sentinel contract is awarded. When the
Risk Review Board identifies specific risks, they are discussed at
monthly Program Management Review sessions and other Sentinel
oversight meetings. Risks are categorized by severity and identified as
either open or resolved. Open risks are tracked until resolved.

       During the initial life cycle phase of Sentinel, the FBI developed a
mission-needs statement that assessed five areas for risk mitigation:
(1) user acceptance, (2) implementation plan, (3) system capacity and
performance, (4) data migration, and (5) infrastructure support. In
addition, the Sentinel acquisition plan identified the following seven
risks.

      •   Several parallel IT initiatives within the FBI can affect the
          scope of Sentinel.

      •   The Sentinel project award schedule is very aggressive and
          the target award date may not be attainable.


                                     vi
      •   Sentinel must interface with numerous FBI legacy systems
          operated outside the FBI’s Office of the Chief Information
          Officer (CIO). 3

      •   The FBI mission may evolve, or Sentinel user requirements
          may change, resulting in scope creep prior to system
          completion.

      •   Initial project costs may be underestimated.

      •   Staffing resources (prime and subcontractors) that meet FBI
          requirements may not be available when needed.

      •   The development contractor may be unable to meet the
          proposed notional schedule.

Awareness of these risks and a systematic monitoring and resolution
of those risks is critical to keeping Sentinel on track.

Project Oversight

      In addition to the management controls incorporated into its
LCMD, the FBI has established two additional forms of project
management and oversight for Sentinel: a Program Management
Office or PMO established specifically for Sentinel, and an array of
external oversight bodies. The PMO, as the FBI’s direct manager of
the Sentinel project, is vital to Sentinel’s success. Among the many
reasons for the failure of the VCF was a fragmented and ill-equipped
PMO that suffered from rapid personnel turnover. Simply put, the VCF
was poorly managed. A well functioning PMO can reduce the risks that
threaten the successful implementation of the Sentinel project.

       While the FBI has established a PMO dedicated exclusively to
Sentinel, this PMO has not yet been fully staffed. Without a fully
staffed, stable, and capable PMO managing the project on a daily
basis, Sentinel is at risk. The FBI intends for the PMO to be comprised
of systems engineers, technical assistance personnel, and other
subject matter experts from the FBI, other government agencies,
federally funded research and development centers, and contractors.
As of January 30, 2006, the PMO had 51 of the planned full staffing
level of 76 employees and contractors on board.

      3
        As discussed previously, Sentinel is to be developed using a phased, or
incremental, approach whereby functionality will be added in stages.


                                        vii
       In response to our concerns about staffing, Sentinel’s program
manager stated that because of the pre-award spending caps the FBI
placed on the program, fully staffing the PMO during the pre-award
phase was premature. As a result, the program manager said the FBI
is only hiring essential program management oversight personnel
during this initial phase to ensure that the PMO is prepared to handle
contract award activities. However, in light of the FBI’s aggressive
development and deployment schedule for Sentinel, it is critical for the
FBI to fully staff the PMO office as soon as possible. In our opinion,
the significant turnover of project management during the Trilogy
project — 15 different key IT managers over the course of its life,
including 10 individuals serving as project managers for various
aspects of Trilogy — was a major reason for Trilogy’s problems. We
believe that sufficiently staffing the Sentinel PMO at the outset of the
project is key to establishing the stable management staff required to
properly oversee the project.

      At the time of our audit, the FBI was working to identify qualified
candidates to fill the vacant PMO positions, many of whom will be
contractor personnel. Another reason for our concern is that security
clearances will be required for the staff of the PMO and, according to
the FBI, obtaining the clearances may delay personnel coming
onboard.

       In addition, it is critical for the PMO to have stable leadership.
In November 2005 the FBI appointed a seasoned program manager on
detail to the FBI from the Central Intelligence Agency to manage the
Sentinel project. However, this program manager’s current agreement
calls for a 2-year detail with an option to extend to a third year. In
light of the likelihood of this manager returning to the CIA before
Sentinel is completed, the FBI plans to groom a successor for him. We
believe that continuity in this position, or a seamless transition to a
qualified successor, is critical for the success of the project.

       In addition, continuity in the FBI’s CIO position is important.
During development of Trilogy and the VCF, the FBI had five different
CIOs or Acting CIOs. However, in the last several years, the FBI has
had continuity in the CIO position. In July 2004, the FBI reorganized
its IT resources and established the Office of the CIO to centrally
manage all IT responsibilities, activities, policies, and employees
across the FBI. The current CIO, who has been in his position since
May 2004, now has responsibility for the FBI’s overall IT efforts,
including developing the FBI’s IT strategic plan and operating budget,



                                   viii
developing and maintaining the FBI’s technology assets, and providing
technical direction for the re-engineering of FBI business processes.

      External oversight organizations also play an important role in
monitoring the Sentinel project and identifying problems that the FBI
may not see. These groups include congressional oversight
committees, the OIG, and several other outside organizations. To its
credit, the FBI has enlisted the assistance of its Science and
Technology Board, RAND, the Markle Foundation, and a retired
corporate chief technology officer to advise the FBI on areas of
information sharing and privacy, IT strategic planning and
investments, and management of large IT acquisitions. 4 In addition,
the Department of Justice CIO and the Office of Management and
Budget are also tracking the progress of Sentinel.

Earned Value Management

      The FBI has developed a Sentinel Program Earned Value
Management (EVM) Capability Implementation Plan in which the FBI
and the Sentinel vendor will be required to apply EVM practices to the
project. EVM is a process that coordinates work scope, schedule, and
cost goals and objectively measures progress toward those goals. The
Sentinel Program Management Office will use the EVM plan to measure
Sentinel’s performance and the performance of the vendor and will
report the results to oversight entities. As of December 2005, the FBI
was in the process of acquiring its EVM tool to track and manage
Sentinel. Until the tool is acquired, the plan outlines a methodology
for the FBI to obtain earned value measures through other
applications. When acquired and implemented, the EVM tool should
allow program managers to evaluate Sentinel project performance
against baselines and identify potential problems with the project.
Due to the importance of EVM in helping to detect problems in a
project’s development, we will continue to monitor the FBI’s
implementation of this process in our future audit work.




       4
          The FBI’s Science and Technology Board provides the FBI Director with
independent advice on how the FBI can more effectively exploit and apply science
and technology to improve its operations. Board members are not involved in
specific procurement actions or contracts but instead focus on identifying current and
emerging technologies that can maximize how the FBI conducts investigations,
collects and disseminates intelligence, and collaborates with law enforcement and
intelligence partners.


                                          ix
Capability Maturity Model Integration

      The FBI’s Statement of Work for the Sentinel project requires
that bidders obtain an independent appraisal certifying that their
systems development, software engineering, and integration processes
are at a Level 3 or higher on the Carnegie-Mellon University’s
Capability Maturity Model Integration (CMMI) 5-level maturity scale.
This requirement covers all vendors and any subcontractors that will
contribute a minimum of 10 percent of the total Sentinel effort in
developing or integrating software. Sentinel’s Statement of Work also
gives the FBI the right to interview the lead appraiser who conducts
the assessment and obtain independent assessments during the
development of the project to verify compliance with the appraised
processes.

      We believe that by requiring vendors to perform at a CMMI
Level 3, the FBI has reduced the risk of selecting vendors that are not
capable of completing the Sentinel project and integrating all four
project phases. Additionally, because the vendors will be
independently reviewed by a CMMI appraiser, the FBI has greater
assurance that the processes the vendor will use to develop Sentinel
follow best industry practices. In our upcoming audit work, we plan to
verify that the CMMI appraisal is conducted, review its results, and
assess the appraiser’s independence.

Enterprise Architecture

       Since 2000, the FBI has struggled to develop an Enterprise
Architecture to help manage its current and planned IT infrastructure
and applications. The lack of a mature Enterprise Architecture was
one of the reasons for the troubled Trilogy project and the failure of
the VCF. However, over the past 5 years the FBI has made significant
progress in establishing its Enterprise Architecture. In March 2005,
the FBI completed an Enterprise Architecture report that provides a
high-level snapshot of current FBI business processes and supporting
IT structures and systems. The FBI has also defined its desired IT
infrastructure environment, or target architecture. In addition, the FBI
has completed an interim architecture report describing how Sentinel
will enhance the FBI’s current IT capabilities. Like most federal
agencies the FBI does not yet have a fully mature architecture, but the
FBI’s architecture now appears to be sufficiently mature to provide the
required management structures and processes needed to guide the
Sentinel project and ensure its compatibility with the rest of the FBI’s
IT environment.


                                   x
Contracting

        The process to identify a contractor for the Sentinel project
began in late June 2005, with the FBI providing information to
potential bidders. In early August 2005, the FBI issued a Request for
Proposals (RFP). Initially, responses were due by September 19 and
the contract was to be awarded on November 15. However, because
of technical questions arising from potential bidders, the FBI extended
the response date to September 26 and the award date to December
31. As of February 2006, however, the contract had not been awarded
and the FBI had not provided a revised award date. According to the
Sentinel program manager, the award date was postponed because
initial reviews by the source selection evaluation team identified a
need for additional data from the companies that submitted proposals.
Once the data is received, the source selection evaluation team will
complete the formal review and present its results to the awarding
committee. The program manager said an award date cannot be
determined until the FBI receives and reviews the additional data.

      The Sentinel development contract will be cost-plus-award-fee in
which the vendor will be rewarded for meeting established goals in
four areas: project management, cost management, schedule, and
technical performance. The award fee can not exceed 12 percent of
the total development costs for Sentinel and will be allocated across
the four areas based on the degree of risk agreed to by the FBI and
the vendor at the signing of the contract. This type of contract is
common for large government IT projects. In our 2005 report on the
FBI’s Trilogy project, we stated our concerns with the cost-plus-award-
fee contract as it was implemented by the FBI in that project. The
cost-plus-award-fee contract used for Trilogy did not: (1) require
specific completion milestones, (2) include critical decision review
points, and (3) provide for penalties if the milestones were not met.
However, the FBI’s improved management processes and controls
should reduce the risk of such problems recurring for Sentinel because
the FBI intends to establish clear milestones, impose penalties for
missed milestones, and include critical decision review points.

      To identify a prime contractor for Sentinel, the FBI used a
contracting vehicle provided through the National Institutes of Health
(NIH), one of 16 government-wide acquisition contracts the FBI
evaluated before narrowing the field to 5 suitable for a large IT project
such as Sentinel. The FBI selected the NIH CIO Solutions Partners 2
Innovations contracting vehicle because it had 37 prime contractors



                                   xi
and could provide a greater number of potential bidders and a greater
opportunity for competition.

      The FBI has closely guarded information about potential
contractors and costs as procurement sensitive, and has not informed
the OIG of the identities of the potential contractors. However, several
publications have reported that two major defense contractors have
bid on Sentinel.

      According to the Sentinel program manager, as of February 2006
the FBI was evaluating the bids based on the following five factors:

      •   Past performance on programs of similar size, scope,
          technical complexity, and managerial complexity as Sentinel.

      •   Technical approach regarding phased development and
          application of off-the-shelf components.

      •   Management approach to Sentinel’s design, development,
          integration and testing, deployment, and operations and
          maintenance.

      •   Security approach to personnel, infrastructure, and the
          Sentinel lifecycle.

      •   Cost, including reasonableness and completeness.

Funding

       Because this first OIG audit of Sentinel was focused on the FBI’s
pre-acquisition planning, and given the procurement sensitive nature
of cost information at this stage of the award process, the FBI did not
provide us with details regarding the estimated cost of the planned
four-phase Sentinel project. However, in response to a Senate
Appropriations Committee inquiry in October 2005, the FBI estimated
that it would cost the government between $400 and $500 million to
develop Sentinel. The FBI stated that the precise cost estimate will
not be disclosed until the FBI awards the contract, a decision which as
mentioned previously has been postponed to early 2006. In our
upcoming audit work, we plan to examine in detail the winning
bidder’s cost estimates.

     The FBI has stated, however, that it plans to fund the first two
phases of Sentinel by seeking congressional approval to reprogram FBI


                                   xii
funds through two separate requests. According to the FBI’s plan, the
third and fourth phases would be funded by appropriations.

       In accord with this plan, in September 2005 the FBI requested a
$97 million reprogramming of fiscal year (FY) 2005 funds for the first
phase of Sentinel. Congress approved the reprogramming in mid-
November 2005. According to the FBI’s submission, more than $14
million of the initial reprogramming will come from the
Counterterrorism Division budget, $13 million from intelligence-related
activities, and $2 million from the Cyber Division.

       We interviewed officials at FBI headquarters to assess the effect
of this $97 million reprogramming on FBI operations. Generally, these
officials said their divisions and offices can withstand the diversion of
funds to Sentinel for the first reprogramming. However, we are
concerned that diverting substantial funds from such mission-critical
areas could begin eroding the FBI’s operational effectiveness, only to
be compounded by an anticipated second reprogramming.

       Although the FBI divisions and offices seemed confident about
their ability to absorb the initial reprogramming of funds to Sentinel,
they stated that a second reprogramming of the same magnitude
would damage their ability to fulfill their mission. According to the FBI
CIO, the FBI intends to send another reprogramming request to
Congress to fund the second phase of the Sentinel program in
FY 2006.

       The OIG plans to assess the operational impact of these
reprogrammings in subsequent Sentinel audits to ensure the FBI’s
critical missions are not adversely affected by the reprogramming of
funds to the Sentinel project.

Training

       At the time of our audit in February 2006, the FBI had not yet
developed a training plan or complete cost estimates for Sentinel
training. The FBI’s first reprogramming request estimated $1.2 million
for training in the first phase, although the FBI recognized that total
training costs over the life of the project will be substantially higher.
Consequently, we recommend that the FBI develop a comprehensive
training plan with more accurate cost estimates as soon as possible so
that complete training costs can be included in the overall Sentinel
budget.



                                   xiii
Cost Tracking

       In the Trilogy project, the FBI lacked an effective, reliable
system to track and validate the contractors’ costs. We highlighted
this concern in our February 2005 report on Trilogy and the VCF.
Although the FBI stated during the current audit that it was evaluating
a tool to track project costs, we recommend that the FBI implement an
effective method to track and control costs as soon as possible. We
view the potential weaknesses in cost control over the Sentinel project
as a significant project risk.

Information Sharing

       According to the Sentinel requirements document, the FBI’s
ability to share information not only internally but also with its law
enforcement and intelligence community partners is an important
design requirement for Sentinel. In addition, according to the Senior
Policy Advisor to the Department of Justice’s CIO, through the
interagency Federal Investigative Case Management System (FICMS)
effort, Sentinel is intended to provide the core elements of a case
management system that other law enforcement and intelligence
agencies can adapt to meet their unique requirements. While the FBI
has considered its internal needs in developing Sentinel’s
requirements, we are concerned that the FBI has not yet adequately
examined or discussed Sentinel’s ability to connect with external
systems in other Department of Justice components, the Department
of Homeland Security (DHS), and other intelligence community
agencies. If such connectivity is not built into Sentinel’s design, other
agencies could be forced into costly and time-consuming modifications
to their systems to allow information sharing with the Sentinel system.

       The FBI CIO told us that the FBI invited representatives of the
DHS, Drug Enforcement Administration (DEA), and Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF) to participate in the
development of Sentinel’s requirements. In addition, the CIO said the
FBI has discussed Sentinel interface issues with the Office of
Management and Budget (OMB) and the Directorate of National
Intelligence (DNI). We interviewed officials from the DHS, DEA, and
ATF concerning Sentinel. DHS officials told us that it reviewed the
system requirements the FBI had already prepared, but that the DHS
did not participate in developing them. DHS officials said that the DHS
does not have enough information at this stage of Sentinel’s
development to assess whether Sentinel and DHS systems will be able
to share information or what will be required to achieve compatibility.


                                   xiv
According to a DHS official, the DHS hopes to “piggyback” onto
Sentinel and use at least parts for its own investigative case
management system. In addition, the DHS said it plans to assign IT
subject-matter experts to the FBI to assist in advising on and
managing Sentinel, but is not certain of the specific role the personnel
would play.

      The DEA plans to deploy its own new case management system
to DEA field offices in early 2006. According to the DEA’s Deputy CIO,
its new case management system is not compatible with Sentinel as
currently designed. To address this incompatibility, DEA officials said
they plan to monitor Sentinel’s development to identify any
modifications in the DEA system needed to achieve compatibility with
Sentinel.

       The ATF said it had not reviewed the requirements for Sentinel
and did not know at this early stage whether it would need to modify
its systems to achieve compatibility.

Conclusions

       In our judgment, the FBI has taken important steps to address
its past mistakes with the VCF in planning for the development of
Sentinel. In reviewing the management processes and controls the
FBI has applied to the pre-acquisition phase of Sentinel, we believe
that the FBI has adequately planned for the project and this planning
provides reasonable assurance that the FBI can successfully complete
Sentinel if the processes and controls are implemented as intended.
However, we have several concerns about the project that we believe
require action and continued monitoring by the FBI, the OIG, and
other interested parties. These concerns include: (1) the incomplete
staffing of the PMO, (2) the FBI’s ability to reprogram funds to
complete the second phase of the project without jeopardizing its
mission-critical operations, (3) Sentinel’s ability to share information
with external intelligence and law enforcement agencies and provide a
common framework for other agencies’ case management systems,
(4) the lack of an established EVM process, (5) the FBI’s ability to
track and control Sentinel’s costs, and (6) the lack of complete
documentation required by the FBI’s ITIM processes.

      The OIG will continue to monitor and periodically issue audit
reports throughout the Sentinel project in an effort to track the FBI’s
progress and identify any emerging concerns over the cost, schedule,
technical, and performance aspects of the project.


                                   xv
OIG Recommendations

      In this initial Sentinel audit, we make seven recommendations
for the FBI to help ensure the success of the Sentinel case
management system. The recommendations are:

     •   Ensure that the system security and Independent Verification
         and Validation plans are completed as soon as possible after
         the contract is signed.

     •   Ensure that the Sentinel Program Management Office is
         staffed to a level that will support Sentinel’s aggressive
         delivery schedule.

     •   Obtain a tool that will allow the effective implementation of an
         Earned Value Management process and fully implement this
         process.

     •   Discuss with other intelligence community and law
         enforcement agencies their information-sharing requirements
         to ensure compatibility with those systems in the
         requirements and design of Sentinel.

     •   Ensure that an effective system is in place to accurately track
         and control Sentinel’s development costs.

     •   Complete a comprehensive training plan with realistic
         schedule and cost estimates and include the training cost
         estimates in estimates of the overall project’s costs.

     •   Establish a method to monitor the operational impact of a
         potential second reprogramming and identify any degrading
         of the FBI’s mission-critical functions due to the diversion of
         funds to the Sentinel project.




                                   xvi
                              TABLE OF CONTENTS


INTRODUCTION .......................................................................... 1
     Background ....................................................................... 1
     Sentinel............................................................................. 3
     Sentinel’s Phased Approach.................................................. 5
     Prior Reports ...................................................................... 7

FINDINGS AND RECOMMENDATIONS ........................................... 10
     Planning the Development of Sentinel.................................. 10
     Improved Management Processes and Controls ..................... 10
     Management and Oversight................................................ 17
     Enterprise Architecture ...................................................... 20
     Risk Management ............................................................ 21
     Leveraging the VCF for Sentinel .......................................... 24
     Sentinel Cost and Funding.................................................. 24
     Earned Value Management................................................. 27
     Capability Maturity Model Integration .................................. 28
     Contracting ...................................................................... 29
     Information Sharing .......................................................... 33
     Conclusion ....................................................................... 39
     Recommendations ............................................................ 41

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 43

STATEMENT ON INTERNAL CONTROLS ......................................... 45

APPENDIX 1:          OBJECTIVES, SCOPE, AND METHODOLOGY ............ 46

APPENDIX 2:          ACRONYMS........................................................ 47

APPENDIX 3:          PRIOR REPORTS ON THE FBI’S INFORMATION
                     TECHNOLOGY .................................................... 48

APPENDIX 4:          FBI’S LCMD IT SYSTEMS LIFE CYCLE ..................... 54

APPENDIX 5:          THE FBI LCMD KEY PROCESS AREAS ..................... 55

APPENDIX 6:          PMO STAFF POSITIONS AND RESPONSIBILITIES .... 58

APPENDIX 7:          THE FBI’S RISK MITIGATION STRATEGY ................ 60
APPENDIX 8:    QUESTIONNAIRE USED TO DETERMINE THE MOST
               VIABLE CONTRACT VEHICLE ................................ 62

APPENDIX 9:    GLOBAL JUSTICE XML DATA REFERENCE MODEL
               AND NATIONAL INFORMATION EXCHANGE MODEL .. 65

APPENDIX 10:   THE FEDERAL BUREAU OF INVESTIGATION’S
               RESPONSE TO THE DRAFT REPORT ....................... 67

APPENDIX 11:   OFFICE OF THE INSPECTOR GENERAL ANALYSIS
               AND SUMMARY OF ACTIONS NECESSARY TO
               CLOSE THE REPORT............................................ 70
                           INTRODUCTION

Background

       In testimony before the House Appropriations Committee on
March 8, 2005, the Director of the Federal Bureau of Investigation
(FBI) discussed the FBI’s plan to develop and implement a state-of-
the-art case management system called Sentinel over 4 phases taking
about 42 months. The Sentinel project replaces the FBI’s unsuccessful
efforts over the previous 3 years to develop an automated case
management system called the Virtual Case File (VCF), which was
intended to replace its obsolete Automated Case Support (ACS)
system. Because of the FBI’s failed $170 million VCF project,
congressional appropriations and oversight committees questioned
whether the FBI could successfully develop and implement a case
management system of Sentinel’s magnitude.

       Because of the importance of the Sentinel project, the
congressional appropriations committees and the FBI Director asked
the Department of Justice Office of the Inspector General (OIG) to
monitor and periodically report on the FBI’s development of Sentinel.
Over the past few years, the OIG and others have reviewed various
aspects of the FBI’s information technology (IT) infrastructure and
cited a critical need for the FBI to modernize its case management
system. In previous reports, the OIG concluded that current FBI
systems do not permit agents, analysts, and managers to readily
access and share case-related information throughout the FBI, and
without this capability, the FBI cannot perform its critical missions as
efficiently and effectively as it should.

       In its mission-needs statement for Sentinel, the FBI stated that
its current case management system must be upgraded to utilize new
information technologies by moving from a primarily paper-based case
management process to an electronic records system. The FBI noted
that this transition would enable agents and analysts to more
effectively perform their investigative and intelligence duties.

      The FBI’s attempt to move from a paper-based to an electronic
case management system began with the Trilogy project in mid-2001.
The objectives of Trilogy were to update the FBI’s aging and limited IT
infrastructure; provide needed IT applications for FBI agents, analysts,
and others to efficiently and effectively do their jobs; and lay the
foundation for future IT improvements. Trilogy consisted of upgrading
the FBI’s: (1) hardware and software; (2) communications network;


                                    1
and (3) the five most important investigative applications, including
the antiquated ACS. The first two components of Trilogy were
completed in April 2004 at a cost of $337 million, almost $100 million
more than originally planned. Among other improvements, the FBI
enhanced its IT infrastructure with new desktop computers for its
employees and deployed a wide area network to enhance electronic
communication among FBI offices and with other law enforcement
organizations. However, despite additional funding the FBI had
received to accelerate Trilogy, these first two phases were not
completed any faster than originally planned.

      In early 2004, after nearly 3 years of development, the FBI
engaged several external organizations and contractors to evaluate the
VCF, the third prong of the Trilogy project. The National Research
Council, in its May 2004 report, concluded that the VCF project was
not on a path to success because of: (1) inadequate contingency
planning for the transition from the existing case management system
to a new one, (2) the absence of a completed enterprise architecture,
(3) inadequate time allowed for testing, (4) weaknesses in contract
management, and (5) an inadequate IT human resources base. 5

       In light of these conclusions, the FBI began to consider
alternative approaches to developing the VCF, including terminating
the project or developing a completely new case management system.
In late 2004, the FBI commissioned Aerospace Corporation to perform
a trade study evaluating the functionality of commercial off-the-shelf
(COTS) and government off-the-shelf (GOTS) technology to meet the
FBI’s case management needs. Aerospace followed this study with an
Independent Verification and Validation (IV&V) report on the VCF,
issued in January 2005, which recommended that the FBI pursue a
COTS-based, service-oriented architecture. 6 The IV&V report
concluded that a lack of effective engineering discipline led to
inadequate specification, design, and development of the VCF.

      In late 2004, the FBI modified its approach to developing the
VCF by dividing the project into Initial Operational Capability (IOC) and
Full Operational Capability segments. The IOC segment assessed the

       5
           The National Research Council of the National Academies. A Review of the
FBI’s Trilogy Information Technology Program, May 2004.
       6
         A service-oriented architecture is a collection of services that communicate
with each other. The communication can involve a simple data exchange or two or
more services coordinating on an activity.



                                          2
VCF project and involved a pilot test of the most advanced version of
VCF in an FBI field office. The Project Management Executive for the
FBI’s Office of Information Technology Program Management stated
that the results of the pilot validated that ending the VCF project was
the right decision.

      The FBI issued a final report on the IOC at the end of April
       7
2005. According to the report, the FBI terminated work on the VCF
due to the lack of progress on its development. The FBI stated that it
was concerned that the computer code being used to develop the VCF
lacked a modular structure, thereby making enhancements and
maintenance difficult. In addition, the FBI report said that the
“marketplace” had changed significantly since the VCF development
had begun, and appropriate COTS products, which were previously
unavailable, were now available. In his March 2005 testimony before
the House Appropriations Committee, the FBI Director said the FBI
would apply lessons learned from the VCF to develop and deploy
Sentinel.

Sentinel

      Similar to what the FBI had envisioned for the final version of
the VCF, Sentinel is intended to not only provide a new electronic case
management system, transitioning the FBI files from paper-based to
electronic records, but also to result in streamlined processes for
agents to maintain investigative lead and case data. 8 In essence, the
FBI expects Sentinel to be an integrated system supporting the
processing, storage, and management of information to allow the FBI
to more effectively perform its investigative and intelligence
operations.

      According to the FBI, the use of Sentinel in the future will
depend on the system’s ability to be easily adapted to evolving
investigative and intelligence business requirements over time.
Therefore, the FBI intends to develop Sentinel using a flexible software
architecture that allows future changes to software components as
needed. According to the FBI, a key element of the Sentinel
architecture contributing to achieving this flexibility will be the use of

       7
          Department of Justice, Federal Bureau of Investigation. Federal Bureau of
Investigation: Virtual Case File Initial Operational Capability Final Report, version
1.0, April 29, 2005.
       8
          A lead is a request from any FBI field office or headquarters for assistance
in the investigation of a case.


                                           3
COTS and GOTS applications software. The FBI intends to integrate
the off-the-shelf products with an Oracle database, thereby separating
the applications code from the underlying data being managed in order
to simplify any future upgrades.

       FBI agents are required to document investigative activity and
information obtained during an investigation. The case file is the
central system for holding these records and managing investigative
resources. As a result, the case file includes documentation from the
inception of a case to its conclusion. FBI agents and analysts create
paper files in performing their work, making the process of adding a
document to a case file a highly paper-intensive, manual process.
Files for major cases can contain over 100,000 documents, leads, and
evidence items.

        Currently, the documentation within case files is electronically
managed through the ACS system. The ACS system maintains
electronic copies of most documents in the case file, providing
references to those documents that exist in hardcopy only. Upon
approval of a paper document, an electronic copy of the completed
document is uploaded to the electronic case file of the ACS system.
However, the ACS is a severely outdated system that is cumbersome
to use effectively and does not facilitate the searching and sharing of
information. For example, a former FBI project management
executive testified before the Senate Judiciary Committee in July 2002
that “there’s no mouse, there’s no icon, there’s no year 2000 look to
it, it’s all very keyboard intensive.” The limited capabilities of the ACS
and its lack of user-friendliness mean that agents and analysts cannot
easily acquire and link information across the FBI.

      In contrast, the FBI expects Sentinel to greatly enhance the
usability of case files for agents and analysts, both in terms of adding
information to case files as well as searching for case information. FBI
supervisors, reviewers, and others involved in the approval process
also will be able to review, comment, and approve the insertion of
documents into appropriate FBI electronic case files through Sentinel.

        In addition to enhancing the investigative capabilities within the
FBI, Sentinel is intended to serve as the pilot project in the
development of the Federal Investigative Case Management System
(FICMS) framework as part of the e-government case management
line of business. The FBI was named the lead agency for the FICMS
initiative, which, according to a June 2005 memorandum of
understanding (MOU) signed by the FBI, DOJ, and DHS Chief


                                     4
Information Officers (CIO), is intended to produce an architectural
framework designed to: (1) bring federal law enforcement and
investigative resources into a common electronic environment that
promotes collaboration and optimum deployment of federal resources;
and (2) create investigative case management solutions that provide
state-of-the-art capabilities to collect, share, and analyze information
from internal and external sources and initiate appropriate
enforcement responses. According to a Senior Policy Advisor to the
Department’s CIO, other federal agencies can use Sentinel’s core
solution because of its standard set of case management tools and
adaptability. Additionally, according to the FBI CIO, the Office of
Management and Budget (OMB) has begun to encourage other
agencies to become involved with the development of Sentinel and its
interfaces in order to ensure future information sharing capability
among all agencies.

Sentinel’s Phased Approach

       The FBI expects to develop the Sentinel project in 4 overlapping
phases, each with a 12- to 18-month timeframe. For example, Phase
II is anticipated to begin approximately 3 months after the start of
Phase I. Each phase, when deployed, will result in a stand-alone set
of capabilities that can be added to by subsequent phases to complete
the Sentinel project. The following chart shows the phases and
general timeframes for Sentinel, according to the FBI.




                                   5
Source: FBI

       Phase I will introduce the Sentinel portal, which will provide
access to data from the existing ACS system and eventually, through
incremental changes, support access to a newly created investigative
case management system. Phase I will also provide a case
management “workbox” that will present a summary of all cases the
user is involved with, rather than requiring the user to perform a
series of queries to find the cases as is currently necessary with the
ACS. Additionally, the FBI will acquire software to identify persons,
places, or things within the case files for automated indexing to allow
the files to be searchable by these categories. The FBI will also select
the core infrastructure components of the system in Phase I.

     Phase II will provide case document management and a records
management repository. The second phase will begin the transition to
paperless case records and the implementation of electronic records
management. A workflow tool will support the flow of electronic case


                                   6
documents through the review and approval cycles. A new security
framework will be implemented to support access controls and
electronic signatures.

       Phase III will replace the Universal Index (UNI), which is used to
determine if a piece of information about a person, place, or thing
exists within the FBI’s current case management system. The UNI is a
database of persons, places, and things that have relevance to a case.
While the current UNI supports only a limited number of attributes,
Phase III will expand the number of attributes within the case
management system. Improving the attributes associated with the
entities will allow more precise and comprehensive searching and
increase the ability to “connect the dots” while performing casework.

      Phase IV will implement Sentinel’s new case management and
reporting capabilities, and will consolidate the various case
management components into one overall system. At the end of this
phase, the legacy systems will be shut down and the remaining cases
in the legacy electronic case file will be migrated to the new case
management system. In this phase, as in all the others, changes to
the Sentinel portal will be required to accommodate the new features
being introduced.

Prior Reports

      Over the past 3 years, several oversight entities have issued
reports examining the FBI’s attempts to update its case management
system through the VCF. These reports the OIG, the Government
Accountability Office (GAO), the House of Representatives’ Surveys
and Investigations Staff, the FBI, and other entities made a variety of
recommendations focusing on the FBI’s management of the VCF
project and the continuing need to replace the outdated ACS system.
A discussion of key points from these reports follows. (A more
comprehensive description of the reports appears in Appendix 3.)

      In February 2005, the OIG reported on the critical need to
replace the ACS, finding that without an effective case management
system the FBI remained significantly hampered due to the poor
functionality and lack of information-sharing capabilities of its current
IT systems. 9 The report concluded that the difficulties the FBI

       9
          Department of Justice, Office of the Inspector General. The Federal Bureau
of Investigation’s Management of the Trilogy Information Technology Management
Project, Audit Report Number 05-07, February 2005.



                                         7
experienced in replacing the ACS were attributable to: (1) poorly
defined and slowly evolving design requirements, (2) contracting
weaknesses, (3) IT investment management weaknesses, (4) lack of
an Enterprise Architecture, (5) lack of management continuity and
oversight, (6) unrealistic scheduling of tasks, (7) lack of adequate
project integration, and (8) inadequate resolution of issues raised in
reports on Trilogy.

      In April 2005, the House Appropriation Committee’s Surveys and
Investigations staff similarly concluded in its report that: 10

      •    VCF development suffered due to a lack of program
           management expertise, disciplined systems engineering
           practices, and contract management. The project also was
           harmed by a high turnover of CIOs and program managers.

      •    VCF development was negatively affected by the FBI’s lack of
           an empowered and centralized CIO office and sound business
           processes by which IT projects are managed.

      •    The FBI’s decision to terminate VCF was related to
           deficiencies in the VCF product delivered, failure of a pilot
           project to meet user needs, and the new direction the FBI
           planned to take for its case management system.

      •    The FBI’s IT program management business structure and
           processes at the time of the report were, for the most part, in
           place, although some of these processes needed to mature.

      In September 2004, the GAO reported that although
improvements were under way and more were planned, the FBI did
not have an integrated plan for modernizing its IT system. 11 The GAO
reported that each of the FBI’s divisions and other organizational units
that manage IT projects performed integrated planning for its
respective IT projects. However, the plans did not provide a common,
authoritative, and integrated view of how IT investments will help

      10
          U.S. Congress, House of Representatives, House Surveys and
Investigations. A Report to the Committee on Appropriations, U.S. House of
Representatives, April 2005.
      11
         U.S. Government Accountability Office. Information Technology:
Foundational Steps Being Taken to Made Needed FBI Systems Modernization
Management Improvements, Report Number GAO 04-842, September 2004.



                                        8
optimize mission performance, and they did not consistently contain
the elements expected to be found in effective systems modernization
plans. The GAO recommended that the FBI limit its near-term
investments in IT systems until it developed an integrated systems
and modernization plan and effective policies and procedures for
systems acquisition and investment management. Additionally, the
GAO recommended that the FBI’s CIO be provided with the
responsibility and authority to effectively manage IT FBI-wide.

      We now turn to our findings from the OIG’s first audit of the
FBI’s Sentinel program, which as noted above focused on the FBI’s
pre-acquisition planning for Sentinel.




                                   9
                  FINDINGS AND RECOMMENDATIONS

PLANNING THE DEVELOPMENT OF SENTINEL

     The FBI has applied lessons learned from the Trilogy
     project and failed VCF effort to the planning and
     management of the Sentinel project. Specifically, the FBI
     has made significant progress by developing Information
     Technology Investment Management (ITIM) processes, a
     more mature Enterprise Architecture, and other
     management improvements since the Trilogy project
     including establishing a Sentinel Program Management
     Office (PMO). Despite these improvements, we have
     several concerns about the project that require action and
     continued monitoring: (1) the incomplete staffing of the
     PMO, (2) the FBI’s ability to reprogram funds to complete
     the second phase of the project without jeopardizing its
     mission-critical operations, (3) Sentinel’s ability to share
     information with external intelligence and law enforcement
     agencies and provide a common framework for other
     agencies’ case management systems, (4) the lack of an
     established Earned Value Management (EVM) process, (5)
     the FBI’s ability to track and control Sentinel’s costs, and
     (6) the lack of complete documentation required by the
     FBI’s ITIM processes.

Improved Management Processes and Controls

       In the early stages of the Trilogy project, the OIG and GAO
recommended that the FBI establish an ITIM process to guide the
development of its IT investments. In response, the FBI instituted a
Life Cycle Management Directive (LCMD) in 2004 while Trilogy was
well underway. The LCMD established policies and guidance applicable
to all FBI IT programs and projects, including Sentinel. We believe the
structure and controls imposed by the LCMD can help prevent many of
the problems encountered with the failed development of the VCF.

      The LCMD covers the entire IT system life cycle, including
planning, acquisition, development, testing, and operations and
maintenance. As a result, the LCMD provides the framework for
standardized, repeatable, and sustainable processes and best practices
in developing IT systems. Application of the IT systems life cycle
within the LCMD can also enhance guidance for IT programs and
projects, leverage technology, build institutional knowledge, and



                                  10
ensure that development is based on industry and government best
practices.

      The LCMD is comprised of four integrated components: life cycle
phases, control gates, project level reviews, and key support
processes. A diagram showing how these components relate to each
other is found in Appendix 4.

      According to the FBI CIO, since the inception of the LCMD all FBI
IT programs and projects have been reviewed and managed according
to the processes described in the LCMD. New IT programs and
projects have been managed under the LCMD from inception and will
continue to be managed through retirement or replacement. Existing
IT programs and projects were reviewed and placed within the
relevant life cycle phase according to their maturity and other factors.

System Life Cycle Phases

      The LCMD has established nine phases that occur during the
development, implementation, and retirement of IT projects. During
these phases, specific requirements must be met for the project to
obtain the necessary FBI management approvals to proceed to the
next phase. The approvals occur through seven control gates, where
management boards meet to discuss and approve or disapprove a
project’s progression to future phases of development,
implementation, or retirement. As of December 6, 2005, the Sentinel
project had passed through the first three of the nine phases and is
currently in the fourth phase – Source Selection. The following table
shows the nine phases of development, implementation, and
retirement.




                                   11
                    FBI LCMD DEVELOPMENT PHASES

   PHASE NAME                               DESCRIPTION

1. Concept Exploration    Identifies the mission need, develops and
                          evaluates alternate solutions, and develops the
                          business plan.

2. Requirements           Defines the operational, technical and test
   Development            requirements, and initiates project planning.

3. Acquisition Planning   Allocates the requirements among the
                          development segments, researches and applies
                          lessons learned from previous projects, identifies
                          potential product and service providers, and
                          identifies funding.

4. Source Selection       Solicits and evaluates proposals and selects the
                          product and service providers.

5. Design                 Creates detailed designs for system components,
                          products, and interfaces; establishes testing
                          procedures for a system’s individual components
                          and products and for the testing of the entire
                          system once completed.

6. Development and        Produces and tests all system components,
   Test                   assembles and tests all products, and plans for
                          system testing.

7. Implementation and     Executes functional, interface, system, and
   Integration            integration testing; provides user training; and
                          accepts and transitions the product to operations.

8. Operations and         Maintains and supports the product, and manages
   Maintenance            and implements necessary modifications.

9. Disposal               Shuts down the system operations and arranges
                          for the orderly disposition of system assets

Source: FBI

Control Gate Reviews

       The seven control gate reviews provide management control and
direction, decision-making, coordination, confirmation of successful



                                  12
performance of activities, and determination of a system’s readiness to
proceed to the next life cycle phase. Decisions made at each control
gate review dictate the next step for the IT program or project and
may include: allowing an IT program or project to proceed to the next
segment or phase, directing rework before proceeding to the next
segment or phase, or terminating the IT program or project. The FBI’s
Investment Management Project Review Board (IMPRB) — comprised
of 12 representatives from each FBI division at the Assistant Director
level and 4 representatives from the Office of the Chief Information
Office, including the CIO — is responsible for approving an IT project’s
passing through each control gate. The Sentinel project has been
approved through the first two of the LCMD control gates: the system
concept on July 15, 2005, and the acquisition plan on July 29, 2005.

     The following table shows the seven control gate reviews that
govern the approval of an IT project and the related LCMD phases.




                                  13
                    FBI LCMD CONTROL GATE REVIEWS

 GATE                                DESCRIPTION

Gate 1    System Concept Review approves the recommended system concept
          of operations and occurs at the end of Phase 1 of LCMD.

Gate 2    Acquisition Plan Review approves the Systems Specification and
          Interface Control documents as developed in Phase 2 and the
          approach and resources required to acquire the system as defined in
          the Acquisition Plan as developed in Phase 3.

Gate 3    Final Design Review approves the build-to and code-to documentation
          and associated draft verification procedures. It also ensures that the
          design presented can be produced and will meet its design-to
          specification at verification. The gate review occurs after the
          contractor is selected in Phase 4 and system design is completed in
          Phase 5.

Gate 4    Deployment Readiness Review approves the readiness of the system
          for deployment in the operational environment. The gate review
          occurs after the system is developed and tested in Phase 6. Approval
          through the Gate 4 signifies readiness for the system implementation.

Gate 5    System Test Readiness Review verifies readiness to perform an
          official system-wide data gathering verification test for either
          qualification or acceptance. The gate review occurs mid-way through
          Phase 7.

Gate 6    Operational Acceptance Review approves overall system and product
          validation by obtaining customer acceptance and determining
          whether the operations and maintenance organization agrees to, and
          has the ability to, support continuous operations of the system. The
          gate review occurs at the end of Phase 7.

Gate 7    Disposal Review authorizes termination of the Operations and
          Maintenance life cycle phase and disposes of system resources. The
          gate review occurs at the end of Phase 8 and results in Phase 9.

   Source: FBI

         At each control gate, executive-level reviews determine system
   readiness to proceed to the next phase of the IT systems life cycle.
   Evidence of readiness is presented and discussed at each control gate
   review in the form of deliverables, checklists, and documented
   decisions. Regardless of the development model used for a particular


                                     14
program or project, all control gate reviews should be performed
unless an agreement is made to skip or combine them. Depending
upon the development model employed, programs or projects may
pass through the control gates more than once. Because Sentinel is
being developed in phases, and the contractor must provide a system
design for each phase, the project will pass through Control Gate 3
four times.

      The control gate reviews also provide executive-level controls to
ensure that IT projects are adequately supported and reviewed before
a project receives additional funding. Five executive-level review
boards serve as the decision authority for the control gate reviews.

      •   The IMPRB leads the System Concept Review and the
          Acquisition Plan Review (Control Gates 1 and 2) and ensures
          that all IT acquisitions are aligned and comply with FBI
          policies, strategic plans, and investment management
          requirements.

      •   The Technical Review Board leads the Final Design Review
          (Control Gate 3) and ensures that IT systems comply with
          technical requirements and meet FBI needs.

      •   The Change Management Board leads the Deployment
          Readiness Review, System Test Readiness Review,
          Operational Acceptance Review and the Disposal Review
          (Control Gates 4 through 7) and controls and manages
          developmental and operational efforts that change the FBI's
          operational IT environment.

      •   The Enterprise Architecture Board ensures that IT systems
          comply with Enterprise Architecture requirements.

      •   The IT Policy Review Board establishes, coordinates,
          maintains and oversees implementation of IT policies.

      The Gate 2 approval for Sentinel on July 29, 2005, signified that
the IMPRB accepted the overall project approach and cost estimate for
acquiring the Sentinel system. Our review of the approval documents
showed that the FBI generally complied with the requirements of the
LCMD in performing the control gate reviews for Sentinel. However,
two documents required by the LCMD had not been completed at the
time the control gate review was conducted because: (1) the system
security plan could not be developed since the vendor needs to provide
the project design details and, as of the date of the control gate


                                   15
review, the vendor had not been selected, and (2) the IV&V plan has
to be carried out by a separate contractor to provide for an
independent control to assess the implementation of the system
according to technical and performance baselines. As of February
2006, the FBI had not yet awarded the IV&V contract. The system
security plan will provide the detail necessary for the completion of
certification and accreditation of the applications being created for
Sentinel. The IV&V plan is, in our opinion, crucial to ensuring the
success of the Sentinel project. We will continue to monitor these two
items in our subsequent audit work, including whether the IV&V is
being implemented by an independent contractor.

        At the Gate 2 review, the IMPRB approved Sentinel prior to the
approval of the acquisition plan. The OMB requires non-phased IT
projects to demonstrate funding for the entire project prior to the
signing of a contract. The FBI’s LCMD incorporates this process for
most of its IT projects. However, because Sentinel is a multi-phased
project, the FBI has modified this part of the LCMD. According to the
FBI, for Sentinel the FBI will identify funds for each phase of the
project prior to work being initiated for that phase rather than
identifying the funds for all four phases from the outset. The FBI will
perform separate acquisition plan reviews for each phase prior to its
initiation, and each phase must receive Control Gate 2 approval before
proceeding. We agree with this modification to the LCMD for Sentinel
because it provides greater oversight of the project and requires a
distinct commitment of funds prior to the initiation of each phase.

      Had such control gates and management reviews been in place
during the Trilogy project, many of the problems with that project
could have been avoided or identified earlier for corrective action.

Project-Level Reviews

       Project-level reviews help determine a project’s readiness to
proceed to the next phase of the project life cycle. Each project-level
review provides information to the executive-level control gates as
data is developed and milestones are completed. At the conclusion of
our field work for this audit in December 2005, the FBI had conducted
two project-level reviews for Sentinel:

      •   The Mission-Needs Review is a technical progress review that
          approves the set of mission goals that will be satisfied
          through the project. The mission goals are documented in



                                  16
         the Mission Requirement and Concept of Operations
         document.

     •   The System Specification Review is a technical progress
         review that approves the System Specification and External
         Interface Control Documents. The review is the decision
         point that determines whether to proceed with the
         development of an Acquisition Plan, the allocation of system
         requirements to segment specifications, and the development
         of Project Plans that will execute the acquisition.

Key Support Processes

       The LCMD also contains 23 key support processes that provide
additional support to the development of projects within the FBI.
While the key support processes are not developed for projects
specifically, these processes cover organization-wide management
functions, and as a result the key support processes affect how
individual projects are managed. For example, one key support
process is the FBI’s Strategic Plan. For Sentinel, the Strategic Plan
defines the organizational need that Sentinel will address once it is
implemented. However the FBI’s Strategic Plan was not created
specifically for Sentinel. Key process areas are performed
independently of the life cycle phases and the deliverables associated
with each key process are integrated into the control gate and project-
level reviews where applicable. Appendix 5 lists the 23 key process
areas.

Management and Oversight

       Based on our review of planning documents and interviews with
key FBI personnel including the CIO, we believe that the FBI is
applying more rigorous management controls and ITIM processes in
planning for Sentinel. Moreover, during the 3 years of Trilogy’s
development, the FBI had five different CIOs or acting CIOs. Since the
start of Sentinel’s development, the FBI has had stability in the CIO
position. In addition, as a result of a July 2004 reorganization, the
CIO’s office has much greater authority over all FBI IT management
and resources than it did in the pre-Sentinel era.

Sentinel Program Management Office

      The PMO plays a critical role in assuring that the FBI implements
a case management system that meets its needs. The PMO’s contract
and program execution responsibilities include: (1) cost, schedule,


                                  17
and performance oversight; (2) LCMD project reviews; (3) award fee
evaluations; (4) primary contractor’s documentation review and
acceptance; (5) requirements and risk management; and (6) budget
and financial management. In light of these responsibilities, having a
qualified, dedicated PMO staff focused on program execution is critical
to the success of the Sentinel project.

       Since the PMO’s creation soon after the inception of the Sentinel
project, the FBI has made progress in staffing the office. As of
January 30, 2006, the PMO consisted of 51 of the 76 IT personnel
identified in the FBI’s Sentinel Staffing Plan (67 percent) as required to
properly oversee the project. According to the FBI, the objective in
staffing the PMO is to form an integrated team of subject matter
experts from government, federally funded research and development
centers, and system engineers and technical assistance contractors to
maximize program expertise. 12 The Sentinel program manager told
the OIG that because of the pre-award spending caps placed on the
program, it was premature to staff the entire PMO during the pre-
award effort. As a result, he said the FBI is hiring essential program
management oversight personnel to ensure that the PMO is prepared
to handle contract award activities. In addition, another FBI official
told us that delays in hiring PMO staff have resulted from the FBI’s
lengthy background investigation and clearance process. However,
due to the aggressive scheduling of Sentinel, it is critical for the FBI to
fully staff the PMO office as soon as possible. In our opinion, the
significant turnover of project management during the Trilogy project
— 15 different key IT managers over the course of its life, including 10
individuals serving as project managers for various aspects of Trilogy
— was a major reason for Trilogy’s problems. We believe that fully
staffing the Sentinel PMO before the project begins is key to
establishing the stable management staff required to properly oversee
the project.

      The Sentinel program manager, on loan to the FBI from the
Central Intelligence Agency since November 2005, is experienced with
large IT systems acquisitions and should provide strong leadership.
However, he is detailed to the FBI for 2 years, with an option to
extend for another year. As a result, he is expected to return to his
home agency before Sentinel is completed. When questioned about
the program manager’s planned tenure, the FBI CIO said that a

      12
           Federally funded research and development centers are nonprofit
organizations sponsored and funded by the U.S. government to assist government
agencies with scientific research and analysis, systems development, and systems
acquisition.


                                       18
potential replacement will be assigned to work directly with the
program manager in the event of the program manger’s departure. In
addition, the FBI said that it continues to build management depth in
the Sentinel PMO to ensure that each position has a trained backup to
ensure continuity.

     In light of the likelihood of the program manager’s return to the
CIA before Sentinel is completed, we believe that the FBI needs to
ensure a seamless transition to a qualified successor.

      Moreover, as discussed in our February 2005 report on Trilogy,
given the turnover of key personnel during that effort and the resulting
lack of continuity and oversight, it is important for the FBI to maximize
leadership stability throughout the project, not only with respect to the
program manager but also other key PMO positions.

     The following table summarizes the PMO’s staffing level as of
January 31, 2006.

            SENTINEL PMO STAFFING REQUIREMENTS

                                            Planned          Staff on
      Organizational Units
                                              Staff           Board
      Program Leadership                       2                  2
      Direct Reporting Staff                   8                  6
      Organization Change
                                               5                  2
      Management Team
      Business Management                      5                  4
      Administrative Support                  11                  5
      Program Integration                     10                 10
      System Development                      23                 21
      Transition                               9                  1
      Operations &
                                               3                  0
      Maintenance
        Total                                 76                 51
       Source: The FBI
       Notes: (a) The staffing requirement plan does not include individuals who
       are on temporary duty assignment to the project.




                                       19
For a more complete description of PMO staff and their duties, see
Appendix 6.

       Although we are concerned about the incomplete staffing of the
PMO given its vital role in helping ensure the success of the Sentinel
project — particularly since project management was one of the major
reasons for the VCF failure — the FBI has filled some of the more
critical PMO positions, such as program leadership, system engineers,
contracting officer, and business manager. The OIG will continue to
monitor the staffing of the PMO and the stability of the program’s
leadership in future audit reports to ensure that Sentinel has the
needed staff in place to help ensure its success.

Sentinel Oversight

      In addition to its ITIM processes represented by the LCMD, the
FBI has identified four external oversight or advisory entities in
addition to the OIG and congressional committees that will provide
feedback on Sentinel’s development: (1) the FBI’s Science and
Technology Board, (2) RAND, (3) the Markle Foundation, and (4) a
retired corporate chief technology officer to advise the FBI on areas of
information sharing and privacy, IT strategic planning and
investments, and management of large IT acquisitions. 13 The FBI also
holds monthly meetings with representatives of the OMB and the
Department — and weekly meetings with the FBI Director — to track
Sentinel’s progress. We found that progress briefings during the VCF-
development process proved ineffective. Therefore, we believe that
vigorous reporting and analysis of Sentinel is needed to maintain
transparency over the project’s progress and identify any problems
encountered as Sentinel unfolds. Our future audits of Sentinel will
examine the extent and effectiveness of such project oversight.

Enterprise Architecture

       In its February 2005 audit report on the Trilogy project, the OIG
cited the lack of an Enterprise Architecture as one of the reasons for
the failure of the VCF effort. Since then, the FBI has made progress in

       13
           The FBI’s Science and Technology Board provides the Director with
independent advice on how the FBI can more effectively exploit and apply science
and technology to improve its operations. Board members are not involved in
specific procurement actions or contracts but instead focus on identifying current and
emerging technologies that can maximize how the FBI conducts investigations,
collects and disseminates intelligence, and collaborates with law enforcement and
intelligence partners.


                                         20
establishing an Enterprise Architecture to more effectively and
efficiently manage its current and future IT infrastructure. In March
2005, the FBI completed an Enterprise Architecture baseline report on
the status of its “as is” Enterprise Architecture activities. The purpose
of the report was to provide a high-level snapshot of current FBI
business processes and supporting IT structures and systems. In May
2005, the FBI issued a similar report on its “to be” architecture
activities and an interim architecture report showing how Sentinel will
help the FBI in attaining the future IT environment outlined in the “to
be” architecture report. The FBI stated that while its Enterprise
Architecture continues to mature, it now provides a roadmap to help
the FBI more effectively develop systems that directly support its
mission.

      Currently, the FBI is in the approval process for its Enterprise
Architecture development methodology documentation, which will help
ensure that each FBI component follows the same set of guidelines
when developing IT systems. If the FBI continues to use the new
Enterprise Architecture documentation to drive its IT investments, it
minimizes the risk of investing in IT that is duplicative, poorly
integrated, costly, or not supportive of the FBI’s mission. The FBI still
needs to develop a transition plan, a step-by-step process to move
from the current architecture to the target architecture. In addition to
establishing a fully mature Enterprise Architecture, the FBI must also
begin to use the Enterprise Architecture to drive its IT investments. In
our opinion, the FBI’s lack of a fully mature Enterprise Architecture,
which few federal agencies have achieved, should not prevent the
Sentinel project from going forward.

Risk Management

       The FBI has instituted a risk management process to identify and
mitigate the risks associated with the Sentinel project. The Sentinel IT
risk process is managed by the Sentinel program manager and a Risk
Review Board. While Risk Review Board meetings have been held
biweekly during the pre-acquisition phase, the FBI plans to hold
weekly meetings once the Sentinel contract is awarded. The most
significant risks identified by the board are examined at monthly
Program Management Review sessions and other Sentinel oversight
meetings in accordance with the LCMD.

      The purpose of risk management is to assist the program
management team in identifying, assessing, categorizing, monitoring,
controlling, and mitigating risks before they negatively affect a


                                   21
program. A risk management plan identifies the procedures used to
manage risk throughout the life of the program. In addition to
documenting the risk approach, the plan focuses on how the risk
process is to be implemented; the roles and responsibilities of the
program manager, program team, and development contractors for
managing risk; how risks are to be tracked throughout the program
life cycle; and how mitigation and contingency plans are implemented.

       Program risks include risks that are identified and managed by
the development contractor as well as risks that can only be identified
and managed by the FBI. This requires that risk management be
performed by the vendor and subcontractors to identify risks from the
contractor perspective, and by the FBI program management team to
identify risks from the FBI’s perspective.

       According to Sentinel Risk Management Plan, Sentinel risks are
to be identified, assessed, and tracked throughout the life of the
program. The PMO is responsible for reviewing new or “proposed”
risks to determine if the items should be accepted as an “open” risk.
Open, or unresolved, risks are supposed to be analyzed, updated, and
assigned impact and severity ratings by each voting board member.
The program manager ranks the risks so that the highest priority risks
get immediate attention. The PMO has the responsibility to track and
periodically review risks that are closed or resolved to prevent
recurrence and to document the effectiveness and any unintended
consequences of the mitigation strategy employed.

      In the initial Concept Exploration Phase of the life cycle, the PMO
developed a mission-needs statement that identified the following five
potential areas of risk in the Sentinel project.

      •   User Acceptance — Ensuring user friendliness, identifying
          possible performance problems, and addressing the cultural
          change employees will face in redefining their business
          processes are important considerations.

      •   Comprehensive Implementation Plan — The implementation
          plan needs to balance infrastructure requirements against
          operational functionality, assess operational impacts in a
          timely manner, and plan for training.

      •   System Capacity and Performance — Increases in workload
          resulting from a greatly improved ability to import documents
          may erode system performance. Additionally, an increased


                                   22
           demand for interoperability with other new systems may also
           degrade performance.

      •    Data Migration — The legacy systems are known to have data
           integrity problems, including missing data fields. A
           comprehensive data migration strategy must address the
           scope of data to be converted to ensure performance and
           analysis expectations are met.

      •    Infrastructure Support — Sentinel will be hosted on the
           Trilogy Transportation Network Component and will be
           supported by the Enterprise Operations Center and Enterprise
           Security Operations Center. Inadequate support from these
           centers would greatly affect user acceptance of the system. 14

       In addition, the acquisition plan created in the planning phase of
the life cycle identified the following risks for the Sentinel project:

      •    Several parallel IT initiatives within the FBI can affect the
           scope of Sentinel.

      •    The project award schedule is very aggressive and the target
           award date may not be attainable.

      •    Sentinel increments must interface with numerous legacy
           systems operated outside the Office of the CIO.

      •    The FBI mission may evolve or user requirements may
           change prior to system completion, resulting in scope creep.

      •    Initial project costs may be underestimated.

      •    Staffing resources (prime and subcontractors) that meet FBI
           requirements may not be available when needed.

      •    The development contractor may be unable to meet the
           proposed notional schedule.

       The plan also considered consequences for each risk area and
offered mitigation plans. We agree with the risks the FBI has
identified. However, the FBI’s mitigation plans, along with its LCMD
      14
          The Trilogy Transportation Network Component is composed of high-speed
connections linking FBI offices.



                                      23
processes and other controls, if followed, will reduce the potential
effects of each risk. A detailed listing of each risk and the FBI’s
mitigation strategy is outlined in Appendix 7.

Leveraging the VCF for Sentinel

       In his February 2005 congressional testimony, the FBI Director
cited a loss of $104.5 million out of the $170 million spent on the 3-
year VCF development effort. However, during the current audit we
were unable to determine how much of the VCF investment the FBI
was able to transfer to the Sentinel project. 15 The FBI did not
maintain records identifying or estimating the cost of any VCF products
that can be incorporated into Sentinel. According to independent
evaluations of the VCF product by Aerospace Corporation, the code
used for developing the VCF was inadequate and therefore should not
be useful for Sentinel. Further, the FBI intends to maximize the use of
off-the-shelf products for Sentinel. Although the FBI likely applied
lessons learned from the VCF effort, including a better understanding
of what features it wanted in a case management system, we were
unable to quantify what, if anything, was transferable from the VCF to
Sentinel. One FBI system engineer said he thought that as much as
40 percent of the VCF specifications would apply to Sentinel, but he
was uncertain and had no documentation to support his estimate.
Another FBI official explained that a limited amount of hardware left
over from the VCF effort was used by the FBI for purposes other than
Sentinel. The only clear-cut transfer from the VCF was $3,542,000 in
fiscal year (FY) 2004-2005 funding that has been redirected to
Sentinel.

Sentinel Cost and Funding

      Because this first Sentinel audit focused on the FBI’s pre-
acquisition planning, and given the procurement sensitive nature of
the information, the FBI did not disclose to the OIG the estimated cost
of the planned four-phase Sentinel project. However, in response to a
Senate Appropriations Committee inquiry in October 2005, the FBI
estimated that it would cost between $400 and $500 million to develop
Sentinel. According to the Sentinel program manager, the precise cost
estimate will not be known until the FBI awards the contract, which



      15
           The hardware and communications infrastructure deployed as a part of
Trilogy will be used by Sentinel.



                                        24
has been postponed to early 2006. 16 Our next audit will examine in
detail the winning bidder’s cost estimates.

      According to the FBI’s Deputy Assistant Director of Finance,
during the summer of 2005 the FBI met with representatives from the
Department of Justice and the OMB to discuss options to fund the
project. In the end, the FBI decided to seek funding for Sentinel using
both reprogrammed and appropriated funds: the first two phases
would be funded using FBI funds reprogrammed from other projects
and operations and the third and fourth phases would be funded using
appropriated funds.

Reprogramming Request

       According to an FBI official, the OMB required the FBI to identify
the funding for each phase of Sentinel before work on that phase could
begin. As a result, on September 27, 2005, the FBI submitted a $97
million reprogramming request to Congress for the first phase of
Sentinel. Congress approved the request on November 15, 2005.
The FBI’s reprogramming request did not offer sufficient detail for us
to render a detailed opinion on the specific amount of the request.
Yet, because of the FBI’s extreme need for a new case management
system, this initial reprogramming request appears reasonable, and in
our judgment, the Sentinel program should move forward.

       The FBI currently is developing a second reprogramming request
to fund the second phase of Sentinel at an amount which we believe
will be similar to the first request — approximately $100 million. The
size of the appropriations the FBI expects to seek from Congress to
complete the third and fourth phases of the Sentinel program are
unknown to us, as are the funds that will be needed to operate and
maintain the program on an ongoing basis. The FBI has agreed to
provide a more precise cost estimate for the remainder of the project
after the Sentinel contract is awarded.

       With regard to training, the FBI’s initial $97 million
reprogramming request includes $1.2 million in training costs in the
first phase of the Sentinel program. However, the FBI has not yet
developed a comprehensive training plan for Sentinel or an estimate
for its full training costs. In our judgment, training costs over the life
of the project will be substantial.
      16
         According to the FBI, the contract award was postponed because the FBI
needed additional information from the bidders.



                                       25
      The reprogramming request also cites approximately $10 million
as management reserve. In our judgment, maintaining a
management reserve is a prudent practice given the uncertainties of
developing a new IT system. However, when attempting to calculate
the amount of the management reserve required for a major IT
project, an organization should consider the degree of risk associated
with the project and use Earned Value Management (EVM) tools to
quantify the effect on the project should the potential risk materialize.
We do not have enough information at this time to evaluate the
adequacy of the FBI’s proposed reserve for the first phase of Sentinel
or what amount of reserve might be required over the life of the entire
program. As the project progresses, the FBI must continue to monitor
and reassess the level of the reserve fund.

       According to the FBI, more than $14 million of the initial
reprogramming will come from the Counterterrorism Division budget,
$13 million from intelligence-related activities, and $2 million from the
Cyber Division. We interviewed officials at FBI headquarters to assess
the effect of the $97 million reprogramming on FBI operations.
Generally, these officials said their divisions and offices can withstand
the diversion of funds to Sentinel for the first reprogramming.
However, we are concerned that diverting substantial funds from such
mission-critical areas could begin eroding the FBI’s operational
effectiveness, only to be compounded by an anticipated second
reprogramming.

       Although most FBI divisions and offices seemed confident about
their ability to absorb the initial reprogramming of funds to Sentinel,
they stated that a second reprogramming of the same magnitude
would damage their ability to fulfill their mission. According to FBI
CIO, the FBI intends to send another reprogramming request to
Congress to fund the second phase of the Sentinel program in
FY 2006.

      The OIG plans to assess the operational impact of these
reprogrammings in subsequent Sentinel audits to assess whether the
FBI’s critical missions are adversely affected while the FBI also seeks
to provide its employees with a case management system that will
help them do their jobs more effectively and efficiently.


Cost Tracking and Control



                                   26
       In the Trilogy project, the FBI lacked an effective, reliable
system to track and validate the contractors’ costs. We highlighted
this concern in our February 2005 report on Trilogy and the VCF.
Further, in February 2006 draft report, the GAO stated its preliminary
finding that the FBI’s poor cost controls resulted in the payment of
about $10 million in questionable contractor costs. 17 Although the FBI
stated that it is evaluating a tool to track Sentinel project costs, we
view the potential weaknesses in cost control as a project risk.

Earned Value Management

      One approach to achieving reliable program cost estimates,
evaluating current progress, and analyzing schedule and cost
performance trends is to employ the discipline of EVM. EVM enables
project teams to report progress to program managers to evaluate
performance against initial baselines. In essence, EVM is a method of
imposing accountability on a project and exposing potential problems
while there is still time to fix them.

      In a memorandum dated August 4, 2005, the OMB required
federal CIOs to manage and measure all major IT projects to within 10
percent of baseline goals by using an EVM system. The OMB required
each agency to develop agency policies for full implementation of EVM
on IT projects by December 31, 2005. In August 2005, the FBI
developed a Sentinel Program EVM Capability Implementation Plan
which, in our judgment, satisfied the OMB requirement for the project.

     According to the plan, the Sentinel PMO will use the plan to
measure its earned value performance, and the performance of the
vendor, and report the result to oversight entities. The Statement of
Work requires that Sentinel’s vendor and its contractors implement
EVM in accordance with the plan.

      According to the FBI, it has evaluated several tools to track and
manage EVM results. The evaluation consisted of examining technical
and functional capabilities of the tools, learning about the
requirements for the associated system environment, reviewing
implementation methodologies and training materials, evaluating tool
acquisition and installation costs, and viewing demonstration sessions



      17
          U.S. Government Accountability Office. (DRAFT) Federal Bureau of
Investigation: Weak Controls over Trilogy Project Led to Payment of Questionable
Contractor Costs and Missing Assets, Report Number GAO-06-306, February 2006.


                                       27
of potential tools. As a result of this review, the FBI intends to use the
following tools to track and manage Sentinel in the short term.

      •   Program schedules, including milestones, will be developed
          and maintained using the existing Microsoft Project 2003
          software.

      •   Program risks will be documented and managed using the
          Risk Register software suite developed and maintained by the
          FBI Office of IT Planning and Policy.

      •   Budgets will be prepared and managed using Microsoft Office
          Professional software resident in the FBI’s Trilogy software
          suite.

       In the long term, the FBI expects that its EVM performance
metrics will be developed, maintained, and reported using Métier’s
WorkLenz software suite. The FBI is acquiring the software but will
need to complete security certification and accreditation for the
software to be certified for use on FBI systems. According to the FBI,
full implementation and execution of the EVM capabilities for the
Sentinel project are scheduled to be completed after the Integrated
Baseline Review occurs approximately 2 months after the award of the
Sentinel contract. Based on our initial review, the FBI’s EVM strategy
appears adequate. We will monitor the FBI’s implementation of EVM in
future audits.

Capability Maturity Model Integration

      The FBI’s Statement of Work for the Sentinel project requires
that bidders obtain an independent appraisal certifying that their
systems development, software engineering, and integration processes
are at a Level 3 or higher on the Carnegie-Mellon University’s
Capability Maturity Model Integration (CMMI) 5-level maturity scale.
This requirement includes all vendors and any subcontractor that will
contribute a minimum of 10 percent of the total Sentinel effort in
developing or integrating software. Sentinel’s Statement of Work also
gives the FBI the right to interview the lead appraiser who conducted
the assessment and to conduct independent assessments during the
development of the project to verify compliance with the appraised
processes.

      We believe that by requiring the vendor to perform at a CMMI
Level 3, the FBI reduces the risk of selecting a vendor that is not


                                   28
capable of completing the Sentinel project and integrating all four
project phases. Additionally, because the vendor will be independently
reviewed by a CMMI appraiser, the FBI has assurance that the
processes the vendor will use to develop Sentinel are rated favorably
in relation to best industry practices. In our upcoming audit work, we
plan to verify that the appraisal was conducted, review its results,
validate the appraiser’s independence, and review the results of the
appraisal.

Contracting

      In selecting the appropriate contract type for the development of
Sentinel, the FBI originally identified 16 Government-wide Acquisition
Contracts (GWAC) that were suitable for a project as extensive as
Sentinel. The FBI eliminated 11 of the 16 GWACs as inappropriate
vehicles for Sentinel because the contract vehicle’s task scope was
inadequate, task-order cost reimbursement was not allowed, or the
contractors available through the GWAC lacked the expertise needed
for the project. The FBI further analyzed the other five GWACs to
determine which were the most suitable for the project. The analysis
included a 29-item questionnaire with 6 discriminator areas. 18 The
discriminator areas are listed below.

     •    FBI Audit Capability — The FBI believed that its ability to
          audit the contractor’s financial records would be critical to
          determine invoice accuracy and program progress.

     •    Use of FBI Contracting Officer Post Award Administration —
          The FBI wanted to ensure that the contracting vehicle would
          allow the FBI to manage the contract using the FBI
          Contracting Officer.

     •    Number of Prime Contractors on the GWAC — The FBI
          believed that the more prime contractors available on the
          GWAC the greater the possibility of selecting the most
          qualified contractor.

     •    Period of Performance Limitations — The FBI wanted to
          ensure that the GWAC would not expire before the completion
          of the Sentinel project.


     18
          See Appendix 8 for a list of 29 items from the questionnaire.



                                         29
      •    Ability to Add Subcontractors — The FBI wanted to ensure
           that the prime contractor’s ability to add a new or specialized
           subcontractor to resolve unique problems would not be
           affected by GWAC constraints.

      •    Interagency Fee Structure — The FBI wanted to ensure that
           interagency fee charged by the GWAC for use of its contract
           vehicle was reasonable.

      Based on the information obtained from the questionnaires, the
FBI eliminated two of the remaining five GWACs for two reasons:
(1) the GWAC did not allow direct order, and (2) the GWAC may not
support the acquisition strategy of having all task orders awarded by
January 2006 and be of no more than five years in duration. 19 From
the other three GWACs, the FBI chose the National Institute of
Health’s (NIH) Chief Information Officer–Solutions Partners 2
Innovations (CIO-SP2i) contract vehicle because it gave the FBI the
greatest flexibility and included 37 potential bidders.

      The Federal Acquisition Regulations (FAR) § 15.201 encourages
agencies to promote early exchanges of information prior to the
release of the Request for Proposals (RFP). The purpose of exchanging
information is to improve the understanding of government
requirements and industry capabilities, thereby allowing potential
bidders to judge whether or how they can satisfy the government's
requirements. An early exchange of information can identify and
resolve concerns regarding: the acquisition strategy, including the
proposed contract type; terms and conditions; acquisition planning
schedules; requirements; statements of work; data requirements; and
any other industry concerns or questions. The FAR also identifies
techniques to promote early exchanges of information, including
industry or small business conferences, public hearings, market
research, and one-on-one meetings with potential bidders.

      On June 27, 2005, the FBI held an Industry Day to exchange
information with potential bidders. All NIH CIO-SP2i contractors were
invited to participate. According to the FBI, the potential contract
bidders attending the session submitted both contractual and technical
questions. However, the FBI would not provide these questions for
our review because they were deemed procurement sensitive.



      19
          Direct order allows the agency, not the GWAC, to issue and manage the
task orders associated with the contract.


                                       30
      On August 5, 2005, the FBI issued an RFP with responses due by
September 19 and a contract award date of November 15. According
to FBI officials, the due date for the proposals was extended one week
to September 26, 2005, because vendors needed more time to
complete the technical, management, and cost sections of the
proposal. Subsequently, the contract award date was rescheduled for
December 31, 2005, and later postponed again to an unspecified date
in 2006. The FBI said that the source selection evaluation team,
during its initial review of the proposals, identified the need for
additional data from the bidders. As a result, the FBI said it will not
establish a new contract award date until the source selection
evaluation team receives and reviews the additional data.

      According to the FAR § 15.203, RFPs for competitive acquisitions
should state the government's requirements, anticipated terms and
conditions that apply to the contract, information required in the
bidder’s proposal, and factors that will be used to evaluate the
proposal. To meet this requirement, the Sentinel RFP contained the
following documents.

      •   System Requirements Specification — This document outlined
          the specific requirements that the Sentinel system will satisfy.

      •   Statement of Work — This document described the FBI’s
          requirements for Sentinel.

      •   Proposal Preparation Instructions — This document provided
          instructions on how proposals should be prepared and
          submitted. It also included limited terms and conditions that
          will apply to the contract, including the award fee structure.

      •   Evaluation Criteria — This document was a part of the
          Sentinel Statement of Work and described the factors to be
          used in evaluating each proposal.

Based on the above, in our judgment the FBI issued the Sentinel RFP
in accordance with the FAR requirements. While delays have occurred
in awarding a contract for Sentinel, we believe it better for the FBI to
take a reasonable amount of time at the outset of the project to
ensure that the bidders fully understand the FBI’s needs, system
specifications, and expectations.

      According to Sentinel program manager, The FBI is evaluating
the proposals based on the following criteria.


                                    31
      •   Past Performance — This item examines the quality of the
          bidder’s past performance on programs that are similar in
          size, scope, and technological and managerial complexity to
          the Sentinel program. Specifically, the FBI is evaluating the
          bidder’s technical and management performance and a
          functional system the bidder developed.

      •   Technical Approach — This item examines the quality of the
          bidder’s phased development approach and the sufficiency of
          the proposed off-the-shelf selection approach.

      •   Management Approach — This item examines the bidder’s
          proposed management approach for executing Sentinel’s
          design, development, integration and testing, deployment,
          and operations and maintenance.

      •   Security Approach — This item examines the bidder’s
          proposed approach to meeting the Sentinel security
          requirements including personnel, infrastructure, and lifecycle
          security.

      •   Cost — This item examines the realism, reasonableness, and
          completeness of the bidder’s proposed cost.

      The FBI solicited assistance from federally funded research and
development centers and other organizations for administrative,
technical, and cost analysis support during source selection. These
companies were also used as advisors in the evaluation of the
proposals. However, the FBI retained the responsibility for selecting
the contractor.

       At the end of source selection, the FBI intends to award a cost-
plus-award-fee task order contract to develop the Sentinel system. A
cost-plus-award-fee contract provides an estimated cost plus a fee
consisting of a base amount fixed at inception of the contract and an
award amount. The award amount is a pool of dollars available to the
vendor to earn based on performance. The government makes the
award fee determination based on periodic evaluations of vendor
performance. One important aspect of a cost-plus-award-fee contract
is that the award fee amount must be sufficient to motivate the
vendor’s performance. According to the Sentinel Award Fee Plan, the
FBI anticipates capping the overall contract award amount for the
development of Sentinel at 12 percent of development costs.


                                   32
      This type of contract is common for large government IT
projects. In our 2005 report on Trilogy, we stated our concerns with
the cost-plus-award-fee contract as it was implemented by the FBI in
that project. The cost-plus-award-fee contract used for Trilogy did
not: (1) require specific completion milestones, (2) include critical
decision review points, and (3) provide for penalties if the milestones
were not met. However, the FBI’s improved management processes
and controls should minimize the risk of such problems recurring for
Sentinel since the FBI intends to establish clear milestones, penalties
for not meeting milestones, and critical decision review points.

Information Sharing

       Executive Order 13356 requires that federal agencies design
information systems with priority given to the interchange of terrorism
information among agencies. Although the FBI has planned
extensively for information to be shared among its divisions and
offices, we found that it has expended little effort in assessing
information sharing needs with other federal agencies. In particular,
we have no assurance that the FBI has identified all external systems
with which Sentinel must connect. While the Sentinel PMO told us that
all external interfaces have been identified, we found that the external
information sharing requirements for Sentinel have not yet been fully
established but are scheduled to be completed by April 2006. Because
these requirements have yet to be established, we anticipate a
modification to the contract. In our opinion, such modifications
represent a potential risk of requirements creep.

       The FBI is developing Sentinel using architectural models not
widely used in the Department of Justice, which may require
retrofitting or modifying other Department information systems as well
as those of other agencies to effectively share information with
Sentinel. The cost, extent, and timing of those modifications are not
known. In our judgment, the FBI needs to focus more attention on
the sharing of information between Sentinel and other agencies’ data
systems in these early stages of Sentinel’s development. As discussed
below, if Sentinel is developed without defining adequate external
information sharing requirements, the system may not meet the
information sharing mandate of Executive Order 13356, and costs may
escalate due to the addition of these requirements later.

Information Sharing Requirements



                                   33
       During our audit, we interviewed several FBI and Department
officials to better understand the process used to identify Sentinel’s
information sharing requirements. We found that the process the FBI
used to identify the internal information sharing requirements was
extensive, while the process to identify external information sharing
requirements and compatibility appeared non-existent.

       According to the FBI, during the development of Sentinel’s
requirements system engineers held working sessions with future
Sentinel users in the FBI to gain an understanding of what the system
needed to do. The results of these sessions were compiled into a
working draft of the Sentinel system requirements, which was then
circulated to internal users for comment. According to FBI officials,
approximately 1,200 comments were received, and many were
integrated into the final systems requirements document. As a result
of this interaction with internal users, the Sentinel requirements
detailed how the system should interact with internal systems. For
example, the system requirements show how data would be entered
into and extracted from Sentinel as well as how Sentinel will generate
reports currently produced by other FBI systems.

      In response to our concerns about information sharing, the FBI
CIO stated that the FBI is working with the OMB, DHS, and the
Directorate of National Intelligence (DNI) to ensure external interface
requirements are adequately considered. However, the FBI CIO noted
that while the OMB is taking steps to encourage external agencies’
involvement, the level of involvement of these agencies cannot be
controlled by the FBI. With respect to external IT system connections
with Sentinel, the FBI said that in July 2005 it invited the Department
of Homeland Security (DHS), the Drug Enforcement Administration
(DEA), and the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF) to participate in its development of Sentinel’s requirements and
has since begun discussions with the OMB and DNI on the need for
system connections.

       We interviewed representatives from the DHS, DEA, and ATF to
determine the extent of each agency’s involvement in the development
of Sentinel’s requirements. The DHS representative stated that the
DHS was given the opportunity to review the requirements document
after the document was finalized by the FBI. The DHS has committed
to providing the FBI with subject matter experts for 3 years in the
areas of Enterprise Architecture, system engineering, security, privacy,
and data to the project. At the time of our audit, the DHS was in the
process of identifying the personnel to detail to the FBI.


                                  34
       A DEA official stated that the FBI initially wanted the DEA to
participate in an advisory capacity on the Sentinel steering committee
and to have someone assigned full-time to Sentinel. While the DEA
was not able to provide a full-time staff member, two officials
participated on the steering committee. In addition, a DEA official
reviewed the requirements for Sentinel to ensure that Sentinel
addressed DEA information sharing needs. Although the DEA plans to
deploy its own new case management system to its field offices in
early 2006, the DEA said it intends to stay abreast of any
developments with Sentinel. The DEA anticipates that staying
informed about Sentinel will enable it to make changes to its case
management system as the Sentinel project develops, thereby
reducing the need of major retrofitting after Sentinel is completed.
However, before Sentinel can connect with the DEA’s case
management system, a gateway from the classified operating
environment of Sentinel to the sensitive but unclassified environment
of the DEA’s case management system must be established. Overall,
DEA managers said they believe that Sentinel will meet the agency’s
information sharing needs as long as the FBI executes the project as
planned.

       ATF officials told us that in late September 2005, an ATF official
met with the Sentinel program manager to introduce himself as a point
of contact for the ATF and provide information about the ATF’s
research into off-the-shelf products to enhance case management
inquiry capability and facilitate information sharing. ATF officials said
that they had not reviewed any of the requirements for Sentinel, and
have had no other involvement with Sentinel. According to the ATF, it
is too early in the Sentinel project for it to determine whether any
retrofitting of ATF programs will be required once Sentinel is
completed to enable information sharing to occur between the two
agencies.

       During our audit work, we reviewed briefing documents,
prepared by the FBI Office of IT Program Management for the FBI
Deputy Director, in which the FBI indicated that the external interfaces
for information sharing with the intelligence and law enforcement
communities were not well-defined. When questioned about its
uncertainty regarding Sentinel’s compatibility with other agencies’
systems, the FBI said that it has identified all known external
interfaces that would fall under the FBI’s information-sharing
requirements. In addition, the FBI said that previously agreed-upon
standards for information sharing across the law enforcement,


                                   35
intelligence, and defense communities will be followed in the
development of Sentinel. However, we have not seen evidence of a
comprehensive list of these information-sharing requirements. In fact,
an FBI division head told us that the FBI’s list of external information-
sharing requirements should be completed by April 2006. As noted
previously, if Sentinel is developed without adequately defining such
external information sharing requirements, the system may not meet
the information sharing mandate of Executive Order 13356 and the
cost of the project may escalate because of the inclusion of these
requirements at a later date.

Target Architecture

       Sentinel will be developed using the Global Justice Extensible
Markup Language (XML) Data Reference Model (GJXDM) and its
extension, the National Information Exchange Model (NIEM). (See
Appendix 9 for a discussion of these models.) The GJXDM and NIEM
can make information exchange substantially more efficient by
defining how information should be documented. In addition, the
intelligence agencies connected to Sentinel will use the Terrorist
Watchlist Person Data Exchange Standard. 20 The FBI expects its new
investigative case management architecture to capture and define
processes for performing investigations and for collecting, controlling,
analyzing, and sharing law enforcement data. Consequently, the
target architecture for Sentinel that is expected to enable greater
information sharing and improved management reporting is a key
deliverable of the Sentinel case management system.

        According to a Department of Justice system architect, the
GJXDM is not yet in use in most of the systems in the Department.
However, he said the Department is moving forward on a number of
initiatives to ensure its broader implementation. We believe the FBI
and the Department need to focus more attention on this connectivity
issue, because external entities’ systems have not been developed
with the same architectural model. Therefore, retrofitting or modifying
the external agencies’ systems may be necessary, and the cost,
extent, and timing of such retrofitting is unknown at this time.

      According to FBI officials, external collaboration, including
information sharing with the intelligence community and law

       20
          The Terrorist Watchlist Person Data Exchange Standard is a data exchange
format for terrorist watchlist data that supports the Departments of State, Justice,
Homeland Security, and the intelligence community.



                                        36
      enforcement partners, is envisioned with secure connections to a data
      mart. 21 The following figure depicts the FBI’s target architecture for
      such external information sharing.

                     VISION of FBI TARGET ARCHITECTURE




Source: Department of Justice Office of the CIO

            The terrorist attacks of September 11, 2001, underscore the
      need for agencies involved in combating terrorism to be able to
      communicate with one another effectively. An intelligence agency may
      have only partial information on a suspected terrorist, but when
      coupled with information that other agencies possess, a threat may
      become more clear. In our judgment, there is no assurance that the
      requirements for Sentinel have been sufficiently defined to allow such
      interagency information sharing without potentially costly and time-
      consuming modification of agencies’ existing systems to achieve

             21
               A data mart is a specialized version of a data warehouse. Like data
      warehouses, data marts contain a snapshot of operational data that aids strategizing
      based on analyses of past trends and experiences.


                                              37
compatibility with Sentinel. While Sentinel is first and foremost a
system that must address the FBI’s needs, in our judgment it may not
serve the FBI’s goal to prevent future terrorist attacks if this new
system is isolated from information that exists within other agencies’
information systems.

Federal Investigative Case Management System

      In addition to developing its own case management system, the
FBI is also the lead agency for the interagency Federal Investigative
Case Management System (FICMS) initiative, as stated in a
memorandum of understanding (MOU) signed by the FBI, DOJ, and
DHS CIOs in June 2005. As lead agency, the FBI is expected to
develop an architectural framework that will establish case
management data and technology standards that enable electronic
information sharing among government agencies. In April 2005, the
FBI developed a draft FICMS framework which, according to the FBI
CIO, was submitted to the Department for consideration. He added
that the Department is refining the draft framework into a more
mature framework. The June 2005 MOU also states that Sentinel will
be the first implementation of the FICMS framework. The FBI CIO
stated that the FBI is using the draft framework to drive the
development of Sentinel, and when Sentinel is completed it will
provide the FICMS framework with various case management services
that can be adopted by other agencies.

      According to the 2005 MOU, two mission needs drive the
development of the Sentinel project as the initial implementation of
the FICMS:

      •   bring all federal law enforcement and investigative resources
          into a common electronic environment that promotes
          collaboration and optimum deployment of federal resources,
          and

      •   create investigative case management solutions that provide
          state-of-the-art capabilities to collect, share, and analyze
          information from internal and external sources, and initiate
          appropriate enforcement responses.

       The DHS said it provided $500,000 in FY 2005 to the
Department of Justice for FICMS and will contribute up to that amount
in FY 2006. A DHS official said that the DHS would have to wait and
see if the FBI establishes its business processes within Sentinel in such


                                   38
a way that allows the processes to be modified to meet the needs of
other agencies or not. However, if the FBI develops Sentinel as
intended — using a service-oriented architecture — the DHS
anticipates using approximately 40 to 60 percent of the system.
Other potential users of the FICMS framework outside the Department
of Justice include the Departments of Energy and Treasury, and the
DNI. Therefore, the FBI should more closely consult with other
intelligence and law enforcement agencies as the FBI moves forward in
developing Sentinel.

Conclusion

      In our judgment, the FBI has taken a variety of positive steps to
address its past IT development mistakes and to plan for the
development of Sentinel. Specifically, the FBI has made significant
progress by developing ITIM processes, a more mature Enterprise
Architecture, and other management improvements since the Trilogy
project, including establishing a Sentinel Program Management Office.

      However, we have several concerns about the project that
require action and continued monitoring by the FBI, the OIG, and
other interested parties: (1) the incomplete staffing of the PMO,
(2) the FBI’s ability to reprogram funds to complete the second phase
of the project without jeopardizing its mission-critical operations,
(3) Sentinel’s ability to share information with external intelligence and
law enforcement agencies and provide a common framework for other
agencies’ case management systems, (4) the lack of an established
EVM process, (5) the FBI’s ability to track and control Sentinel’s costs,
and (6) the lack of complete documentation required by the FBI’s ITIM
processes.

       Unlike during its failed VCF effort, the FBI now has a maturing
Enterprise Architecture and a sound ITIM process in its LCMD. We
found that the FBI generally is managing the Sentinel project in
accordance with the LCMD. By following the LCMD, the FBI appears to
have implemented adequate management controls through a variety
of review boards and other oversight structures. This includes the
identification of project risks and the development of mitigation
strategies for those risks. The addition of an effective EVM process will
also enhance the FBI’s control over the project cost and schedule.
According to the FBI, full implementation of an EVM process for the
Sentinel project is scheduled to occur approximately 2 months after
the Sentinel contract is awarded. Based on our initial review, the FBI’s




                                   39
EVM strategy appears adequate. We will monitor the FBI’s
implementation of EVM in future audits.

       The FBI continues to build a PMO specific to the Sentinel project,
an entity critical to the project’s successful management continuity
and oversight. However, as of January 30, 2006, the Sentinel PMO
was staffed with 51 of the 76 staff the FBI determined are needed to
successfully manage Sentinel. Unless the FBI fully staffs the PMO
during the first phase of the project, the FBI runs the risk of not being
able to oversee adequately Sentinel’s aggressive delivery schedule.
We believe that it is imperative for the FBI to fully staff the PMO with
qualified personnel as quickly as possible and to continue to follow the
guidelines, requirements, and controls established in the LCMD.

       While we support in principle the FBI’s initial $97 million
reprogramming request for the Sentinel program, we have concerns
about the effect of a second large reprogramming request on the FBI’s
mission-essential operations. It is not clear to us how the FBI can
effectively carry out its wide-ranging and complex mission if funds of
this magnitude need to be diverted from other FBI programs in a
second reprogramming. Additionally, the FBI’s ability to track
Sentinel’s costs needs to be firmly established by the time the contract
is signed to ensure that all of the funding for the project is adequately
accounted for.

      Although the FBI has tried to use its past work on VCF in the
Sentinel effort, neither the FBI nor we could quantify how much
hardware and development work from the VCF had been transferred to
the Sentinel project.

       With regard to information sharing, we found that the
development of Sentinel and the architecture for the interagency
FICMS are being performed largely in parallel. Sentinel is being
developed to be compliant with the GJXDM language and data
reference and the Terrorist Watchlist Person Data Exchange Standard.
There are risks associated with this tandem development approach,
because Sentinel is essentially defining the standards for FICMS.
Furthermore, the ultimate connectivity between Sentinel and external
systems remains unclear, as most Department of Justice systems are
not using the GJXDM model and may require significant modifications
to facilitate information exchange. The cost and extent of those
modifications are unknown at this time.

      In our judgment, Sentinel’s requirements, including those for
information sharing, must be firm before work begins on the project in


                                   40
order to avoid delays and cost increases and if Sentinel is to serve one
of its intended purposes — to provide an investigative case
management system that other federal law enforcement agencies can
adapt for their own use and that will allow for information sharing
among federal law enforcement and intelligence community agencies.
Although the FBI appears to have thoroughly examined internal FBI
information sharing requirements in developing Sentinel, it has not
ensured compatibility with other agencies’ systems.

      We have found that in addition to continuing to develop an EVM
process and the capability to track costs, the FBI has yet to complete
system security and verification and validation plans as established in
the FBI’s ITIM. These plans, which the FBI intends to complete after
the Sentinel contract is awarded, are required to ensure that the
system meets the FBI’s security requirements and is implemented
according to established control mechanisms.

      The OIG will continue to monitor and periodically issue audit
reports throughout the Sentinel project in an effort to track the FBI’s
progress and identify any emerging concerns over the cost, schedule,
technical, and performance aspects of the project. As a result of our
review of the pre-acquisition phase of the Sentinel project, we make
the following recommendations.

Recommendations

      We recommend that the FBI:

      1. Ensure that the system security and Independent Verification
         and Validation plans are completed as soon as possible after
         the contract is signed.

      2. Ensure that the Sentinel Program Management Office is
         staffed to a level that will support Sentinel’s aggressive
         delivery schedule.

      3. Obtain a tool that will allow for the effective implementation
         of an Earned Value Management process and fully implement
         this process.

      4. Discuss with other intelligence community and law
         enforcement agencies their information sharing requirements
         to ensure compatibility with those systems in the
         requirements and design of Sentinel.



                                   41
5. Ensure that an effective system is in place to accurately track
   and control Sentinel’s development costs.

6. Complete a comprehensive Sentinel training plan with realistic
   schedule and cost estimates and include these training cost
   estimates in the estimates of overall project costs.

7. Establish a method to monitor the operational impact of a
   potential second reprogramming and identify for resolution
   any degrading of the FBI’s mission-critical functions due to
   the diversion of funds to the Sentinel project.




                             42
            STATEMENT ON COMPLIANCE WITH
                LAWS AND REGULATIONS

      This audit assessed the FBI’s planning for its Sentinel case
management project. In connection with the audit, as required by the
Government Auditing Standards, we reviewed management processes
and records to obtain reasonable assurance that the FBI’s compliance
with laws and regulations that, if not complied with, in our judgment,
could have a material effect on FBI operations. Compliance with laws
and regulations applicable to the FBI’s management of the Sentinel
project is the responsibility of the FBI’s management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of:

     •   President’s Management Agenda,

     •   OMB Circulars A-11 and A-130,

     •   Executive Order 13356 (superseded by "Executive Order:
         Further Strengthening the Sharing of Terrorism Information
         to Protect Americans," dated October 25, 2005),

     •   Federal Acquisition Regulations,

     •   E-Government Act,

     •   Clinger-Cohen Act,

     •   Paperwork Reduction Act,

     •   DOJ IT Strategic Plan,

     •   Federal Investigative Case Management System Framework,

     •   FBI IT Strategic Plan, and

     •   FBI Life Cycle Management Directive.

     Our audit identified no areas where the FBI was not in
compliance with the laws and regulations referred to above. With
respect to transactions that were not tested, nothing came to our


                                  43
attention that caused us to believe that FBI management was not in
compliance with the laws and regulations cited above.




                                 44
               STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the FBI’s pre-acquisition
planning for its Sentinel project, we considered the FBI’s internal
controls for the purpose of determining our audit procedures. This
evaluation was not made for the purpose of providing assurance on
the internal control structure as a whole. However, we noted certain
matters that we consider to be reportable conditions under the
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
internal control structure that, in our judgment, could adversely affect
the FBI’s ability to manage its Sentinel project. During our audit, we
found the following internal control deficiencies.

      •   The FBI’s Program Management Office for Sentinel is not yet
          fully staffed to effectively manage the Sentinel project.

      •   Sentinel’s information sharing requirements are not yet
          clearly defined to meet the federal intelligence sharing
          mandate.

      Because we are not expressing an opinion on the FBI’s internal
control structure as a whole, this statement is intended solely for the
information and use of the FBI in planning for the Sentinel project.
This restriction is not intended to limit the distribution of this report,
which is a matter of public record.




                                    45
                                                          APPENDIX 1

            OBJECTIVES, SCOPE, AND METHODOLOGY

Objective

      The objective of the audit was to evaluate the FBI’s planning for
Sentinel, including the approach, design, cost and funding sources,
timeframe, contracting vehicle, and oversight structure.

Scope and Methodology

      The audit was performed in accordance with the Government
Auditing Standards, and included tests and procedures necessary to
accomplish the audit objective. We conducted work at the FBI
Headquarters in Washington, D.C.

      To perform our audit, we interviewed officials from the FBI, DEA,
ATF, DHS, and the Department of Justice. We also reviewed
documents related to the planning for the Sentinel project, budget
documentation, organizational structures, congressional testimony,
and prior GAO and OIG reports.

       To evaluate the FBI’s planning for Sentinel including the
approach, design, cost and funding sources, timeframe, contracting
vehicle, and oversight structure, we examined the FBI’s compliance
with its Life Cycle Management Directive. We did this by reviewing the
FBI’s plans for each completed phase of the directive. We also
interviewed FBI division heads to determine if, in their opinion, the
system requirements are comprehensive enough to meet user
expectations. In addition, we reviewed the FBI’s methodology for
selecting the contracting vehicle and developing the system
requirements. We examined the FBI’s proposed funding for the
project including the reprogramming request for the first phase. We
also discussed with FBI officials the potential risk to the FBI’s
operations if a second reprogramming is necessary. We analyzed the
FBI’s staffing procedures for the management and oversight for
Sentinel.

      To examine the issue of information sharing, we reviewed the
Sentinel statement of work and the system requirements. We also
discussed this issue with representatives from the CIO offices of the
FBI, DEA, ATF, and the Departments of Justice and Homeland
Security.


                                  46
                                                    APPENDIX 2

                        ACRONYMS

ACS     Automated Case Support
ATF     Bureau of Alcohol, Tobacco, Firearms and Explosives
CIO     Chief Information Office
CMMI    Capability Maturity Model Integration
COTS    Commercial Off-the-Shelf
DEA     Drug Enforcement Administration
DHS     Department of Homeland Security
EVM     Earned Value Management
FAR     Federal Acquisition Regulations
FBI     Federal Bureau of Investigation
FICMS   Federal Investigative Case Management System
FY      Fiscal Year
GAO     Government Accountability Office
GJXDM   Global Justice XML Data Reference Model
GOTS    Government Off-the-Shelf
GWAC    Government-wide Acquisition Contract
IOC     Initial Operational Capability
IMPRB   Investment Management Project Review Board
IT      Information Technology
ITIM    Information Technology Investment Management
IV&V    Independent Verification & Validation
LCMD    Life Cycle Management Directive
MOU     Memorandum of Understanding
NIEM    National Information Exchange Model
NIH     National Institutes of Health
OCM     Organization Change Management
OIG     Office of the Inspector General
OMB     Office of Management and Budget
PMO     Program Management Office
RFP     Request for Proposal
UNI     Universal Index
VCF     Virtual Case File
XML     Extensible Markup Language




                             47
                                                          APPENDIX 3

               PRIOR REPORTS ON THE FBI’S
                INFORMATION TECHNOLOGY

      Below is a listing of relevant reports discussing the FBI’s
information technology systems. These include reports issued by the
Department of Justice, Office of the Inspector General (OIG), the
Government Accountability Office (GAO), and by other external entities
as well as FBI internal reports.

External Reports on FBI Case Management Efforts

      In February 2005, the OIG issued a report entitled, The Federal
Bureau of Investigation’s Management of the Trilogy Information
Technology Management Project, which encompassed Sentinel’s
predecessor, the Virtual Case File (VCF). The OIG recommended the
FBI take the following steps:

     •   Replace the obsolete ACS system as quickly and as cost
         effectively as feasible.

     •   Reprogram FBI resources to meet the critical need for a
         functional case management system.

     •   Freeze the critical design requirements for the case
         management system before initiating a new contract and
         ensure that the contractor fully understands the requirements
         and has the capability to meet them.

     •   Incorporate development efforts for the VCF into the
         development of the requirements for any successor case
         management system.

     •   Validate and improve as necessary financial systems for
         tracking project costs to ensure complete and accurate data.

     •   Develop policies and procedures to ensure that future
         contracts for IT-related projects include defined requirements,
         progress milestones, and penalties for deviations from the
         baselines.




                                  48
     •   Establish management controls and accountability to ensure
         that baselines for the remainder of the current user
         applications contract and any successor Trilogy-related
         contracts are met.

     •   Apply ITIM processes to all Trilogy-related and any successor
         projects.

     •   Monitor the Enterprise Architecture being developed to ensure
         timely completion as scheduled.

      The report concluded that the difficulties experienced in
completing the Trilogy project were partially attributable to:
(1) design modifications the FBI made as a result of refocusing its
mission from traditional criminal investigations to preventing
terrorism, (2) poor management decisions early in the project,
(3) inadequate project oversight, (4) a lack of sound IT investment
practices, and (5) not applying lessons learned over the course of the
project.

       The National Research Council issued a report in May 2004
entitled A Review of the FBI’s Trilogy Information Technology
Modernization Program. The report found that the program was not
on a path to success, and identified the following needs:

     •   valid contingency plan for transitioning from the old case
         management system to the new one,

     •   completed Enterprise Architecture,

     •   adequate time for testing the new system prior to
         deployment,

     •   improved contract management processes, and

     •   expanded IT human resources base.

      The report concluded that the FBI had made significant progress
in some areas of its IT modernization efforts, such as the
modernization of the computing hardware and baseline software and
the deployment of its networking infrastructure. However, because
the FBI’s IT infrastructure was inadequate in the past, there was still
an enormous gap between the FBI’s IT capabilities and the capabilities
that were urgently needed.


                                  49
      The report was updated in June 2004 as a result of what the
Council deemed clear evidence of progress being made by the FBI to
move ahead in its IT modernization program. This included the
appointment of a permanent CIO and the formation of a staffed
program office for improved IT contract management. The progress
being made by the FBI appeared to the Council to have been more
rapid than expected, although many challenges remained. The Council
also emphasized that the FBI’s missions constitute increasingly
information-intensive challenges, and the ability to integrate and
exploit rapid advances in IT capabilities will only become more critical
with time. The update concluded that even with perfect program
management and execution, substantial IT expenses on an ongoing
basis are inevitable and must be anticipated in the budget process if
the FBI is to maximize the operational leverage that IT offers.

       In September 2004, the GAO issued a report entitled,
Information Technology: Foundational Steps Being Taken to Make
Needed FBI Systems Modernization Management Improvements. This
report stated that although improvements were under way and more
were planned, the FBI did not have an integrated plan for modernizing
its IT systems. Each of the FBI’s divisions and other organizational
units that manage IT projects performs integrated planning for its
respective IT projects. However, the plans did not provide a common,
authoritative, and integrated view of how IT investments will help
optimize mission performance, and they did not consistently contain
the elements expected to be found in effective systems modernization
plans. The GAO recommended that the FBI limit its near-term
investments in IT systems until the FBI developed an integrated
systems and modernization plan and effective policies and procedures
for systems acquisition and investment management. Additionally, the
GAO recommended that the FBI’s CIO be provided with the
responsibility and authority to effectively manage IT FBI-wide.

     In April 2005, the House Surveys and Investigations staff issued
A Report to the Committee on Appropriations, U.S. House of
Representatives, which concluded the following.

      •   VCF development suffered from a lack of program
          management expertise, disciplined systems engineering
          practices, and contract management. The project also was
          affected by a high turnover of Chief Information Officers and
          program managers.



                                   50
      •   VCF development was negatively impacted by the FBI’s lack
          of an empowered and centralized Office of Chief Information
          Officer and sound business processes by which IT projects are
          managed.

      •   The FBI’s decision to terminate VCF was related to
          deficiencies in the VCF product delivered, failure of a pilot
          project to meet user needs, and the new direction the FBI
          planned to take for its case management system.

      •   The FBI’s IT program management business structure and
          processes were, for the most part, in place, although some of
          these processes needed to mature.

FBI Internal Reports on Case Management

      The FBI hired the Aerospace Corporation to perform an
assessment of Commercial Off-the-Shelf (COTS) and Government Off-
the-Shelf (GOTS) systems that could be used in developing a case
management system and also an Independent Verification and
Validation of Trilogy’s Virtual Case File. In December 2004, the
contractor issued the COTS/GOTS Trade Study, which recommended
that the FBI look to systems that have an emphasis on data sharing.
The contractor further recommended that an acquisition strategy be
developed that includes an incremental deployment of core capabilities
and the incremental addition of such components as intelligent search
and reporting and specific analytic capabilities.

       The contractor released the Independent Verification and
Validation of the Trilogy Virtual Case File, Delivery 1: Final Report in
January 2005. The report recommended discarding the VCF and
starting over with a COTS-based solution. The contractor concluded
that a lack of effective engineering discipline had led to inadequate
specification, design, and development of VCF. Further, the contractor
could find no assurance that the architecture, concept of operations
and requirements were correct or complete, and no assurance that
they could be made so without substantial rework. In sum, the
contractor reported that VCF was a system whose true capability was
unknown, and whose capability may remain unknown without
substantial time and resources applied to remediation.




                                    51
Other OIG Reports on the FBI’s IT

      OIG reports issued over the past 15 years have highlighted
issues concerning the FBI’s utilization of IT, including its investigative
systems. In 1990, the OIG issued a report entitled The FBI’s Automatic
Data Processing General Controls. This report described 11 internal
control weaknesses and found that:

      •     The FBI’s phased implementation of its 10-year Long
            Range Automation Strategy, scheduled for completion in
            1990, was severely behind schedule and may not be
            accomplished;

      •     The FBI’s Information Resources Management program
            was fragmented and ineffective, and the FBI’s Information
            Resources Management official did not have effective
            organization-wide authority;

      •     The FBI had not developed and implemented a data
            architecture; and

      •     The FBI’s major mainframe investigative systems were
            labor intensive, complex, untimely, and non-user friendly
            and few agents used these systems.

       The OIG’s July 1999 special report, The Handling of FBI
Intelligence Information Related to the Justice Department’s Campaign
Finance Investigation, stated that FBI personnel were not well-versed
in the ACS system and other databases. Additionally, a November
1999 OIG report entitled A Review of the Justice Department’s
Handling of the Death of Kenneth Michael Trentadue at the Bureau of
Prison’s Federal Transfer Center in Oklahoma City, noted deficiencies
in uploading key evidence into the ACS.

       A March 2002 OIG report entitled, An Investigation of the
Belated Production of Documents in the Oklahoma City Bombing Case,
analyzed the causes for the FBI’s belated delivery of many documents
in the Oklahoma City bombing case. This report concluded that the
ACS system was extraordinarily difficult to use, had significant
deficiencies, and was not the vehicle for moving the FBI into the 21
century. The report noted that inefficiencies and complexities in the
ACS, combined with the lack of a true information management
system, were contributing factors in the FBI’s failure to provide



                                   52
hundreds of investigative documents to the defendants in the
Oklahoma City bombing case.

       In May 2002, the OIG issued a report on the FBI’s administrative
and investigative mainframe systems entitled the Independent
Evaluation Pursuant to the Government Information Security Reform
Act, Fiscal Year 2002. The report identified continued vulnerabilities
with management, operational, and technical controls within the FBI.
The report stated that these vulnerabilities occurred because the
Department and FBI security management had not enforced
compliance with existing security policies, developed a complete set of
policies to effectively secure the administrative and investigative
mainframes, or held FBI personnel responsible for timely correction of
recurring findings. Further, the report stated that FBI management
had been slow to correct identified weaknesses and implement
corrective action and, as a result, many of these deficiencies repeated
year after year in subsequent audits.

       In December 2002, the OIG issued a report on The FBI’s
Management of Information Technology Investments, which included a
case study of the Trilogy project. The report made 30
recommendations, 8 of which addressed the Trilogy project. The
report’s focus was on the need to adopt sound investment
management practices as recommended by the GAO. The report also
stated that the FBI did not fully implement the management processes
associated with successful IT investments. Specifically, the FBI had
failed to implement the following critical processes:

     •     defining and developing IT investment boards,

     •     following a disciplined process of tracking and overseeing
           each project’s cost and schedule milestones over time,

     •     identifying existing IT systems and projects,

     •     identifying the business needs for each IT project, and

     •     using defined processes to select new IT project proposals.

The audit found that the lack of critical IT investment management
processes for Trilogy contributed to missed milestones and led to
uncertainties about cost, schedule, and technical goals.




                                  53
                                                                                                                      APPENDIX 4


                                        FBI’S LCMD IT SYSTEMS LIFE CYCLE

                                                                                             CMB – Lead     CMB – Lead              CMB – Lead
                          IMPRB – Lead                 IMPRB – Lead             TRB – Lead      TRB           IMPRB                 IMPRB/EAB
  Control Gate




                              EAB                          CRB                     EAB              CMB – Lead
    Reviews




                                    1                          2                        3        4      TRB     6                         7

                                    SCR                       APR                        CDR   DRR             OAR                        DR     To
                                                                                                         5
                                                                                                                                               Archives
                                                                                                               Sys TRR
  Reviews




                                                                   SSAR     RCR    PDR         PTRR         SAR               AOR                 TR
  Project




                           MNR                    SSR
                            1                                       3 4 5 6 7                    8        9 10      11        12                  13
                                                   2
                                                                        CIR    DCR                       STRR      ORR
  OCIO
  Roles




                            OIPP          OIPM                               ITSD/CTO
                                                                                    O & M Organization (ITOD & CJIS)
Phases
 Cycle




                           Concept                                Source                     Develop
  Life




                                         Requirements Acquisition                                         Implementation   Operations &
                                         Development Planning Selection
                                                                               Design                                                      Disposal
                          Exploration                                                         & Test       & Integration   Maintenance
            Security




                                 Security Requirements                Security Certification             Security      Security
 Milestones Roles




                                                                                                         Accreditation Re-Accreditation and
                                                                                                                       Re-Certification
   Major




                                                           Proposal   Contract                 ATT                  IATO
                                                           Submission Award                                         ATO
Processes
 Support
   Key




                                                                      Key Supporting Tasks

                                                                                         f           l
                                                                         LEGEND

AOR                    Annual Operational Review                                          MNR              Mission Needs Review
APR                    Acquisition Plan Review                                            OAR              Operational Acceptance Review
ATO                    Authority to Operate                                               ORR              Operational Readiness Review
ATT                    Authorization to Test                                              PDR              Preliminary Design Review
CDR                    Critical Design Review                                             PTRR             Product Test Readiness Review
CIR                    Contract Implementation Review                                     RCR              Requirements Clarification Review
CMB                    Change Management Board                                            SAR              Site Acceptance Review
CRB                    Contract Review Board                                              SCR              System Concept Review
DCR                    Design Concept Review                                              SSAR             Source Selection Authorization Review
DR                     Disposal Review                                                    SSR              System Specification Review
DRR                    Deployment Readiness Review                                        STRR             Site Test Readiness Review
                                                                                          Sys
EAB                    Enterprise Architecture Board                                                       System Test Readiness Review
                                                                                          TRR
FDR                    Final Design Review Board                                          TR               Termination Review
IATO                   Interim Authority to Operate                                       TRB              Technical Review Board
IMPRB                  Investment Management Project Review Board




                                                                       54
                                                        APPENDIX 5

              THE FBI LCMD KEY PROCESS AREAS

Key Process Areas                        Purpose

                      Establishes and maintains the integrity of
Configuration         work products using configuration
Management (CM)       identification, configuration control,
                      configuration status accounting, and
                      configuration audits.
Continuity of
                      Provides plans for continuity of operations in
Operations Planning
                      the event of major crises.
(COOP)
Information Sharing  Maximizes information sharing across IT
                     systems.
                     Develops and maintains the FBI IT
Enterprise           architecture including the “as-is” and “to-be”
Architecture (EA)    (target) architectures and the transition plan
                     for moving to the target architecture.
                     Establishes and applies safeguards within
                     systems, processes, and organizations to
Information Security
                     protect data, software, and hardware from
Management (ISM)
                     accidental or malicious modification,
                     destruction, or disclosure.
Information          Provides the process for planning, selecting
Technology           and controlling the IT resources required to
Investment           effectively support the performance of the FBI
Management (ITIM)    operational and administrative mission areas.
                     Ensures that support considerations are an
                     integral part of an IT system's requirements,
                     design, implementation, and ongoing
Logistics Management
                     maintenance and that the infrastructure
(LOG)
                     necessary for deployment and continued
                     operational support of the system is
                     identified, developed, and acquired.
                     Develops and sustains a measurement
Measurement and
                     capability that is used to support
Analysis (MA)
                     management information needs.




                                55
Organizational
                        Establishes and maintains a usable set of
Process Definition
                        organizational process assets.
(OPD)
                        Plans and implements organizational process
                        improvement based on a thorough
Organizational
                        understanding of the current strengths and
Process Focus (OPF)
                        weaknesses of the organization’s processes
                        and process assets.
                        Develops the skills and knowledge of
Organizational
                        individuals so they can perform their roles
Training (OT)
                        effectively and efficiently.
Portfolio Management
                        Manages the legacy IT system portfolio.
(PORT)
                        Ensures the quality of the product or service
Process and Product     and the processes used to create or provide
Quality Assurance       them, and provides staff and management
(PPQA)                  with objective insight into processes and
                        associated work products.
                        Provides an understanding of the project’s
                        progress so that appropriate corrective
Project Monitoring &
                        actions can be taken when the project’s
Control (PMC)
                        performance deviates significantly from the
                        plan.
                        Establishes and maintains plans that define
Project Planning (PP)
                        project activities.
                        Establishes and maintains effective plans,
Records Management      guidelines, and procedures for the collection,
(RM)                    dissemination, organization, and protection of
                        government records.
Requirements            Produces and analyzes customer, product,
Development (RD)        and product-component requirements.
                        Manages the requirements of the project’s
Requirements            products and their components and identifies
Management (REQM)       inconsistencies between those requirements
                        and the project’s plans and work products.




                                 56
                     Identifies potential problems before they
                     occur so that risk-handling activities may be
Risk Management
                     planned and invoked as needed during the life
(RSKM)
                     of the product or project, to mitigate adverse
                     impacts on achieving objectives.
                     Identifies FBI goals, objectives, and strategies
                     to accomplish the FBI’s mission and vision,
Strategic Planning   guides annual budget and performance
(SP)                 planning, and sets the framework for
                     measuring progress and ensuring
                     accountability.
                     Manages the acquisition of products from
Supplier Agreement
                     suppliers for which there exists a formal
Management (SAM)
                     agreement.
                     Demonstrates that a product or its component
Validation (VAL)     fulfills its intended use when placed in an
                     intended environment.
                     Ensures that selected work products meet
Verification (VER)
                     their specified requirements.




                               57
                                                           APPENDIX 6

        PMO STAFF POSITIONS AND RESPONSIBILITIES

Program Leadership

      The Sentinel program leadership consists of a program manager
and a deputy program manager who are responsible for ensuring the
overall success of the Sentinel project.

Direct Reporting Staff

      The direct reporting staff includes the following:

         •   Contract Officer — oversees all Sentinel contract
             executions, including contractor task-order compliance,
             prepares change orders or other contract modifications as
             required, and also monitors contractual performance.

         •   Contract Officer Technical Representative — assists
             Contracting Officer in technical oversight.

         •   General Counsel — provides legal advice to the program
             manager and deputy program manager.

         •   Communications — assists the program manager in
             relaying program information.

Organization Change Management (OCM)

       OCM is responsible for preparing Sentinel users to accept and
utilize Sentinel’s capabilities. OCM provides a formal path for receiving
new user-originated requirements during the implementation of the
system. The OCM team includes special agents, intelligence analysts,
and professional staff who are on temporary duty assignments to the
Sentinel program.

Business Management

      The Business Management organizational unit develops and
maintains program investments, budget, and spending plans. The
team also monitors, analyzes, and reports on the program’s Earned
Value Management (EVM) status.



                                   58
Administrative Support

     The Administrative Support staff directs the administrative and
support services required by the PMO.

Program Integration

      The Program Integration staff is responsible for developing and
maintaining the Sentinel project baseline and then tracking progress
and risks against that baseline. This team is also responsible for
coordinating external interfaces development plans and dependency
schedules.

System Development.

      The System Development staff is responsible for the overall
system design and its implementation increments. This team is also
responsible for the technical performance outcome of the Sentinel
program and is accountable for the systems requirements and the
delivery of a system whose technical performance meets users’
expectations.

Transition

       The Transition team is responsible for all activities associated
with the transition of Sentinel phase capability from its development to
eventual use by the FBI user community.

Operations and Maintenance

       The Operations and Maintenance staff is responsible for the
operations and maintenance of the deployed Sentinel capabilities until
it reaches full operation capability. At which time this responsibility
will be transferred to the FBI’s Information Technology Operations
Division.




                                  59
                                                                               APPENDIX 7

                       THE FBI’S RISK MITIGATION STRATEGY

Rank      Risk Condition             Risk Consequence                       Mitigation Plan
1    There are a number of         Parallel development       M1. Monitor parallel development efforts;
     parallel initiatives          efforts may result in      develop MOUs for content, interfaces, and
     within the FBI that can       changes to Sentinel        funding strategy; incorporate into Sentinel
     impact the scope of           functional content or      plans as appropriate
     Sentinel                      interface requirements
2    The project award             The target award slip      M1. Develop the draft Request For Proposal
     schedule is very              delays identification of   M2. Develop OMB 300
     aggressive and the target     resources                  M3. Establish schedule baseline
     award date may not be
     attainable
3    Sentinel increments           The coordination and       M1. Document external systems and
     must interface with           information required to    interface requirements for inclusion in the
     numerous legacy               develop the interfaces     solicitation
     systems operated              may consume                M2. Establish a working partnership and
     outside the OCIO              significant, unforeseen    collaborate with the legacy systems” owning
                                   schedule and resources     organization
4      FBI mission evolves or      Funding and schedule       M1. Place the System Requirements
       user requirements           will not support project   Specifications (SRS) under configuration
       change, resulting in        completion                 control prior to RFP release
       scope creep prior to                                   M2. Maintain strict requirements and
       system completion                                      configuration controls throughout the project
                                                              M3. Ensure user advocacy group is the focal
                                                              point for all user changes or needs
                                                              M4. Ensure contractors are aware and adhere
                                                              to change process, including communication
                                                              with user community
                                                              M5. Ensure FBI capabilities are addressed
                                                              early in system development
                                                              M6. Ensure continuous feedback with user
                                                              community
                                                              M7. Concurrence of SRS contents to be
                                                              achieved by each division
5      Initial project costs are   Budgeted costs are not     M1. Establish the SRS early enough to serve
       underestimated              sufficient to complete     as a baseline for the initial cost estimate
                                   project                    M2. Perform a market survey of COTS and
                                                              GOTS products to support baseline
                                                              development
                                                              M3. Generate multiple, independent cost
                                                              estimates
6      Availability of staffing    Project plans,             M1. Identify the government and support
       resources (prime and        schedules, and scope       contractor resources, (and associated


                                                  60
    subcontractors) that    will required             timeline, skills, et al.) in the Sentinel Project
    meet FBI requirements   modification; Sentinel    Plan
    may not be available    vision prolonged or not   M2. Assess the realism of contractor staffing
    when needed             achieved                  during source selection
                                                      M3. Define security clearance requirements
                                                      consistent with the access required by
                                                      development contractor personnel, likely
                                                      reducing the number of Top Secret security
                                                      clearances required
                                                      M4. Require staffing plan submission, with
                                                      clearance status, in project review reporting
                                                      M5. Ensure active government involvement
7   The development         Delivery schedule will    M1. Evaluate realism of proposed schedules
    contractor may be       be delayed, having a      during source selection
    unable to meet the      cascading effect on       M2. Perform Integrated Baseline Reviews, as
    proposed notional       project                   needed, to ensure that the government and
    schedule                                          contractor have a common understanding of
                                                      the project baselines and risks
                                                      M3. Use an integrated master schedule and
                                                      regular status/remediation reporting to
                                                      support schedule control
                                                      M4. Implement Earned Value Management
                                                      in accordance with ANSI/EIA Standard
                                                      M7M4M8A
                                                      M5. Hold weekly project status meetings and
                                                      regular risk management meetings with the
                                                      development contractor
                                                      M6. Impose Resource Loaded Schedule
                                                      (RLS) submission




                                          61
                                                           APPENDIX 8

           QUESTIONNAIRE USED TO DETERMINE THE MOST
                   VIABLE CONTRACT VEHICLE

A. Contract Conditions

1.    Are there specific limitations on the types of services or products
      that may be acquired?

2.    Are there limitations on the dollar amount/percentage of services
      to computer hardware/software?

3.    Are there specifics restrictions or terms/conditions on the
      purchase of computer hardware/software?

4.    Describe the interagency fee structure. Is this fee structure
      flexible depending on the level of support required, or the
      amount of funds obligated?

5.    What type of operating agreement will be put in place between
      the FBI and your agency?

6.    Are there period of performance limitations that apply to this
      GWAC?

7.    Can the contract/task order cross fiscal years or exceed 12-
      months?

8.    Can the task order be incrementally funded?

9.    How are interagency funds transfers handled?

10.   What happens to funds that are not obligated?

11.   Are there limitations/caps on the prime contractor rates charged
      under this vehicle?

12.   What escalations factors are built into the rate structures?

13.   Can labor categories be added to the contract?

14.   Does the GWAC contracting officer periodically audit the prime
      contracts? If so, will the FBI receive a copy of the audit?


                                   62
15.   Are there any provisions in the GWAC contract that would
      preclude the FBI from conducting their own audits (e.g.
      timecards, invoices) at their discretion?

16.   Are there maximum/minimum order limitations?

17.   Are there any particular or unique terms and conditions of which
      the FBI should be aware?

18.   What is the process for handling modifications? Are there
      limitations on the scope of changes?

B. Government Roles and Responsibilities

1.    What services are provided by your agency both pre and post
      award?

2.    Can we retain specific oversight of the contract post-award using
      FBI Contracting Officers?

3.    Will you provide dedicated personnel responsible for this
      particular action?

C. Source Selection

1.    Can the FBI perform an independent proposal evaluation using
      internal best value source selection procedures?

2.    Can the FBI limit competition to certain primes based on the use
      of a white paper down-selection, an advisory multi-step process,
      or other FAR-compliant mechanisms?

3.    Despite limited distribution of the RFP, are other primes able to
      submit a proposal even if they did not receive the RFP?

4.    What will be your role in the source selection process?

5.    Upon completion of the source selection how long will it take to
      award the contract?




                                   63
D. Contractor Teams

1.   What are the restrictions on adding additional primes or
     subcontractors?

2.   Are there restrictions on the percentage of work that primes
     must perform versus subs?

3.   Are there any restrictions on teaming arrangements? Are there
     any restrictions on prime contractors teaming with each other?




                                 64
                                                           APPENDIX 9

GLOBAL JUSTICE XML DATA REFERENCE MODEL AND NATIONAL
            INFORMATION EXCHANGE MODEL

      The Global Justice XML Data Reference Model (GJXDM) is an
Extensible Markup Language (XML) standard designed specifically for
criminal justice information exchanges, providing law enforcement,
public safety agencies, prosecutors, public defenders, and the judicial
branch with a tool to effectively share data and information in a timely
manner. The GJXDM removes the burden from agencies to
independently create exchange standards, and because of its ability to
cover a variety of sources, there is more flexibility to deal with unique
agency requirements and changes. Through the use of a common
vocabulary that is understood system to system, GJXDM enables
access from multiple sources and reuse in multiple applications.

       The National Information Exchange Model (NIEM) is an
"umbrella" model that synchronizes domain-specific models such as
GJXDM. According to a Department of Justice system architect, the
NIEM project vision is to develop a national enterprise-wide framework
to facilitate information sharing across all levels of government in
support of justice, public safety, intelligence, and homeland security
thereby improving America’s security, while respecting the privacy
rights of citizens and the autonomy of external agencies and domains.

      The GJXDM and NIEM models can make information exchange
substantially more efficient by serving as guidance on how to
document information. The models provide a standardized language
where everyone understands what each term means as well as provide
a vocabulary where people would be more likely to choose the same
terms to describe the same thing. Upon that foundation, more specific
standards are created for more specific kinds of information sharing,
particularly for Sentinel and the Federal Investigative Case
Management System (FICMS).

      The various ways in which a FICMS system will exchange
information must be identified and documented, and then exchange
standards are built for each interface using GJXDM and NIEM. These
exchange standards will define a significant portion of what FICMS is,
in that compliance with these standards will be a necessary attribute of
any FICMS system. In turn, these standards will be incorporated back
into GJXDM and NIEM for reuse in other kinds of systems as
appropriate.


                                   65
     The Department created the GJXDM by gathering approximately
16,000 data elements from 35 data dictionaries comprised of
Department agencies as well as various local and state government
sources. Currently, GJXDM consists of a defined and organized
vocabulary of 2,754 reusable components.




                               66
                                         APPENDIX 10

THE FEDERAL BUREAU OF INVESTIGATION’S RESPONSE TO THE
                    DRAFT REPORT




                         67
68
69
                                                         APPENDIX 11

    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      Pursuant to the OIG’s standard audit process, the OIG provided
a draft of this audit report to the FBI on February 22, 2006, for its
review and comment. The FBI’s March 3, 2006, response is included
as Appendix 10 of this final report. The FBI concurred with the seven
recommendations in the audit report. Our analysis of the FBI’s
response to the seven recommendations is provided below.

Status of Recommendations

1. Resolved. In response to this recommendation, the FBI stated that
steps are being taken to ensure that the system security and
Independent Verification and Validation (IV&V) plans will be completed
as soon as possible. Because the system security plan is dependent
on the system design, the system security plan will not be finalized
until the program’s Critical Design Review. In the meantime, the
Sentinel Program Manager has assigned an Information Officer and
Information System Security Manager to coordinate system security
requirements with the prime developer. For the IV&V plan, the FBI is
nearing completion of its efforts to obtain the services of an
independent contractor to support Sentinel and other projects. The
FBI said it anticipates that an IV&V plan will be established during the
design phase of development. This recommendation can be closed
when we receive documentation demonstrating that the system
security and IV&V plans have been completed.

2. Resolved. The FBI’s response states that the Sentinel Program
Manager continues hiring critical government employees and support
service contractors as authorized by the Sentinel staffing plan. The
FBI states that as of February 2006, more than two thirds of the
program staff was in place, including all necessary staff to initiate the
contract award and commence Phase 1 development of Sentinel. Full
staffing is projected to be completed by June 2006, with some of the
transition and operations and maintenance positions being deferred
until after commencement of the project’s development. This
recommendation can be closed when we receive documentation
demonstrating that the Sentinel Program Management Office is staffed
to fully support Sentinel.




                                   70
3. Resolved. In its response, the FBI stated that the Sentinel
Program Management Office (PMO) is procuring a tool to effectively
implement the Earned Value Management process, wInsight.
According to the FBI, this tool will be fully compliant with the FBI’s
enterprise IT Portfolio Tool that is in the final stages of being certified
and accredited by June 2006. This recommendation can be closed
when we receive documentation demonstrating that the FBI has
obtained and implemented a tool that will allow for the effective
implementation of an Earned Value Management process.

4. Resolved. The FBI’s response to this recommendation states that
the Sentinel PMO has a dedicated data architect working with the
intelligence and law enforcement communities on information sharing
capabilities. This recommendation can be closed when we receive
documentation demonstrating that the FBI has discussed with other
intelligence and law enforcement agencies their information sharing
requirements to ensure compatibility with those systems in the
requirements and design of Sentinel.

5. Resolved. In its response, the FBI states that it has already
implemented steps to ensure that all costs are authorized in advance,
verified when delivered, and validated when invoiced. The Sentinel
PMO has a dedicated Business Management Unit to track, monitor, and
control all program and development costs. Additionally, a separate,
dedicated cost code has been established by the FBI’s Chief Financial
Officer for Sentinel within the Office of the Chief Information Officer
(OCIO) that allows for Sentinel, OCIO budget administration, and CFO
teams to jointly track and control Sentinel costs through a Budgetary
Evaluation and Analysis Reporting System tool and oversight process.
This recommendation can be closed when we receive documentation
demonstrating that the FBI has ensured that an effective system is in
place to accurately track and control Sentinel’s development costs.

6. Resolved. The FBI’s response states that the FBI has included
extensive requirements in Sentinel’s Statement of Work for
Organizational Change Management to include training of all FBI staff
at all locations. The development contractor is required to develop a
Sentinel training plan as part of its tasking, and Sentinel cost
estimates already include this activity. This recommendation can be
closed when we receive documentation demonstrating that a
comprehensive training plan with realistic schedule and cost estimates
has been developed and that the training cost estimate is included in
overall Sentinel project costs.



                                     71
7. Resolved. In response to this recommendation, the FBI said that it
routinely evaluates the operational impact of any reprogramming.
Such evaluations are included in the FBI’s decision whether to submit
a request to Congress for the necessary approval to reprogram
resources, and all reprogramming proposals include statements
summarizing the impact on current operations. This recommendation
can be closed when we receive documentation on the FBI’s method for
monitoring the operational impact of a potential second
reprogramming during Sentinel’s development to identify for resolution
any degrading of the FBI’s mission-critical functions due to the
diversion of funds to the Sentinel project.




                                 72
